<html>
<title> - ISSUES AT THE NORTHERN BORDER</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                     ISSUES AT THE NORTHERN BORDER
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2001

                               __________

                           Serial No. 107-107

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform








                       U. S. GOVERNMENT PRINTING OFFICE
81-864                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
                          Conn Carroll, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 28, 2001.................................     1
Statement of:
    Dion, Sylvain, president, Distribution Marcel Dion...........    39
    Duchaine, Stephen, president Highgate Springs chapter, 
      American Federation of Government Employees................    51
    Lariviere, Gilles, president, West Brome Mill................    42
    Ouellette, Jean R., Director, INS, Portland District.........    10
    Paradis, Denis, Member of Parliament of Canada, House of 
      Commons....................................................    30
    Smith, Timothy, executive director, Franklin County 
      Industrial Development Corp................................    69
    Spayd, Philip W., District Field Officer, U.S. Customs.......    17
    Tsounis, Chad, executive director, St. Albans area Chamber of 
      Commerce...................................................    64
    Wilda, John, president, Chapter 142, National Treasury 
      Employees Union............................................    58
Letters, statements, etc., submitted for the record by:
    Dion, Sylvain, president, Distribution Marcel Dion, prepared 
      statement of...............................................    40
    Duchaine, Stephen, president Highgate Springs chapter, 
      American Federation of Government Employees, prepared 
      statement of...............................................    55
    Lariviere, Gilles, president, West Brome Mill, prepared 
      statement of...............................................    44
    Leahy, Hon. Patrick, a Representative in Congress from the 
      State of Vermont, prepared statement of....................    80
    Ouellette, Jean R., Director, INS, Portland District, 
      prepared statement of......................................    12
    Paradis, Denis, Member of Parliament of Canada, House of 
      Commons, prepared statement of.............................    34
    Sanders, Hon. Bernard, a Representative in Congress from the 
      State of Vermont, prepared statement of....................     6
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, Burlington newspaper article.............     9
    Spayd, Philip W., District Field Officer, U.S. Customs, 
      prepared statement of......................................    20
    Tsounis, Chad, executive director, St. Albans area Chamber of 
      Commerce, prepared statement of............................    67
    Wilda, John, president, Chapter 142, National Treasury 
      Employees Union, prepared statement of.....................    61


                     ISSUES AT THE NORTHERN BORDER

                              ----------                              


                        SUNDAY, OCTOBER 28, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                              Highgate Springs, VT.
    The subcommittee met, pursuant to notice, at 3:30 p.m., at 
the U.S. Customs Station, Highgate Springs, Route I-89, North 
of Burlington, VT, Hon. Mark Souder (chairman of the 
subcommittee) presiding.
    Present: Representatives Souder and Sanders.
    Staff present: Chris Donesa, staff director; and Conn 
Carroll, clerk.
    Mr. Souder. Thank you all for coming. I thank Congressman 
Sanders for hosting us today. He's a member of our 
subcommittee, and we look forward to working together and 
addressing a lot of the questions. Today our subcommittee will 
explore the status of the Highgate Springs, VT, border 
crossing.
    We have invited representatives of the U.S. Customs 
Service, the U.S. Marshals Service, and the Immigration and 
Naturalization Service, which also administers the U.S. Border 
Patrol, to testify here today, and we thank Mr. Jean Ouellette, 
District Director of the INS, and Mr. Philip W. Spayd, District 
Field Officer at U.S. Customs, for being here today. We are 
also pleased to have here with us representatives and employees 
of two agencies, Mr. Stephen Duchaine, an INS Inspector and 
president of the Highgate Springs Chapter of the American 
Federation of Government Employees, and Mr. John Wilda, a U.S. 
Customs Inspector, president of Chapter 142 of the National 
Treasury Employees Union.
    The subcommittee is vitally interested in ensuring the 
effective functioning of these agencies, and we will continue 
to work with them and their employees to ensure the continued 
security and effective administration of our Nation's borders.
    We also welcome Mr. Denis Paradis, member of the Canadian 
House of Commons. Mr. Paradis represents the area of Quebec 
just north of this area. Border policy, of course, affects not 
simply the United States, but also Canada. As such, it is of 
vital importance that we seek the input of our neighbors to the 
north in evaluating changes at the border. We are very glad 
that he could join us today.
    When examining border policies, we must also seek the input 
of representatives of the local community, particularly the 
business community, whose livelihood is directly affected by 
the changes at the border. We therefore welcome Mr. Tim Smith, 
executive director of the Franklin County Industrial 
Development Corp., and Mr. Chad Tsounis, director of the St. 
Albans Chamber of Commerce. We also welcome two representatives 
of the Canadian business committee, Mr. Silvain Dion, president 
of Distribution Marcel Dion, and Mr.--I want to say my French 
pronunciation is very poor. Gilles Lariviere? Close? President 
of West Brome Mill.
    In Indiana, anybody who isn't German, we kind of have to 
get them over and kind of sort it out, so I apologize.
    We thank everyone for taking time out of their Sunday 
afternoon to join us for this important discussion.
    Even before the terrorist attacks of September 11, 2001, 
the subcommittee was considering ways to improve both the 
security of our Nation's borders and the efficient flow of 
international commerce, travel and tourism. Continuing problems 
with illegal immigration and the smuggling of drugs and other 
contraband over the southern and northern borders, and the 
threat of terrorism, have prompted calls to hire more Federal 
law enforcement officers and to expand the physical and 
technological infrastructure needed to allow those officers to 
work effectively.
    The attacks of September 11th have emphasized the necessity 
of dealing with the terrorist threat as well as the problems of 
narcotics interdiction and illegal immigration. At the same 
time, long delays at border crossings resulting from the 
increased security measures put in place after September 11th 
have raised concerns about the effect of these policies on 
trade, tourism and travel.
    Congress has been considering numerous proposals to deal 
with these problems. For example, the House of Representatives 
and the Senate have now both passed anti-terrorist legislation 
that, among other measures, would authorize the tripling of 
Border Patrol agents, INS inspectors and Customs inspectors 
along the northern border. It is unclear, however, how quickly 
any of these agencies can meet these requirements. Moreover, it 
is unclear what the impact of this new emphasis on anti-
terrorism will be on personnel decisions at each of these 
agencies.
    This hearing and the hearing tomorrow morning at Champlain, 
NY, are the first in a series of field hearings which will be 
held by this subcommittee at border crossings and ports of 
entry throughout the United States. At each such location, this 
subcommittee will assess the problems facing the Federal 
agencies, local lawmakers, and community and business leaders 
with respect to border policy. We will focus on what new 
resources are needed for the Federal Government most 
effectively to administer the border crossings, as well as what 
new policies can be pursued to ease burdens placed on commerce, 
travel and tourism. We will also explore how the new emphasis 
on preventing terrorism may affect the ability of these 
agencies to carry out their other vital missions.
    These issues are all extremely important and extremely 
urgent, and I look forward to hearing from our witnesses today 
about ways to address them.
    If I could just add to what I've told some of you, that the 
original outgrowth of this actually came from the U.S.-Canada 
Parliamentary Group last May, long before the current crisis. 
Susan Whalen and I chaired the Transborder Subgroup, and we 
were concerned, particularly in the Buffalo and Detroit 
corridor, about the backups that were already occurring.
    We also had additional discussion, as Canada was looking at 
possibly some relaxation of some of their antidrug laws, and 
what that was going to do to further complicate the border-
crossing question, and we needed to try to address these things 
before the crisis became too great.
    Then, after September 11th, we decided to move from just 
Detroit, Buffalo, and Vancouver, to pick up a couple of the 
other major places on the northern border, because historically 
we've looked at the southern border, not the northern border. 
And at the same time, I talked with members of the U.S.-Mexico 
Parliamentary Group, and we're going to hold at least three 
hearings on the southern border in the first week of December. 
We'll be down on the Texas area at Brownsville, Laredo, and 
McAllen, and the second week of December up in the Puget Sound 
area, because--and I want to illustrate one other reason why 
we've decided to come here today. This was, up until a couple 
of weeks ago, even though it's in the Montreal corridor, not 
much media focus was on it. It was a good chance for me to see 
a different type of a mix of if we put more pressure on an 
interstate highway, what also happens on the water, what 
happens if people walk through the woods. People in America are 
demanding that we have more border security, yet if we're going 
to do that, we need to do it in a logical way.
    If I may say one other thing, because many of you may not 
be familiar with our hearing process, we're an oversight 
committee that is to analyze how things are being done, to then 
set up and advise the appropriations and legislative 
committees. But in this case, we're working very much in tandem 
and simultaneously with the authorizers and the appropriators, 
and among other things that we're trying to address, we had, I 
think, 2 weeks ago, now, a hearing on recruitment problems in 
the INS and U.S. Marshals and Customs, because we just doubled, 
roughly, the number of people we expect to hire, yet 67 percent 
of the INS people are generally hired from either local law 
enforcement or the military, and when we say we're going to 
bump up this category, what is it going to do to other parts of 
American society when we do the hiring? What are the problems 
that you have at each place in your recruitment ability? Are 
there pay caps, overtime caps, language caps? We want to look 
at those kind of nuances, as well.
    We're also having this week, to give you a little bit of 
perspective, this week alone, in the Education Committee, we're 
having a hearing on tracking students who immigrate to the 
United States where we've lost track of them, because one of 
the terrorists was one of them where the university didn't keep 
track that they were registered.
    We're also having, in the Government Reform Committee on 
Tuesday, a hearing on the post office. We're having a hearing 
also this week on the sharing of information between local law 
enforcement and our Federal law enforcement officials through 
RISKS, EPIC, and a lot of our intelligence systems. So we're 
comprehensively analyzing our system, because back home there 
is very little else being talked about around the United 
States, except for fear of what's going to happen.
    We need to do this in a responsible way, and that's why 
we're here today. Now I'd like to yield to my friend, Mr. 
Sanders of Vermont.
    Mr. Sanders. Thank you very much, Mr. Chairman, and thank 
you for coming to the State of Vermont this afternoon to get 
input on an issue of enormous concern, and that is, how do we 
protect the northern border of Vermont and the United States 
from terrorists, from drug dealers, and from all those who 
would do us harm, while at the same time making certain that 
commerce, tourism, and legal and legitimate activity between 
the United States and Canada continues to flourish. And 
frankly, as the chairman indicated, I think that is not an easy 
challenge to solve, which is why this hearing is extremely 
appropriate.
    I want to take this opportunity to thank all Vermonters and 
Canadians for coming out today on a beautiful Sunday. We 
appreciate everybody being here. The United States, obviously, 
and Canada, and the people of Vermont and Quebec have long ties 
that go way back. We have people from the same family on both 
sides of the border, and I am absolutely confident that, 
working together, we in fact are going to be able to solve this 
very difficult issue of making sure that both sides of the 
border are safe, and that we continue the flow of commerce that 
is so important to the economy of Vermont and Quebec.
    I would also like to thank--he's not here, but to thank 
Senator Patrick Leahy of Vermont for submitting a statement for 
the record, and Mr. Chairman, I would ask unanimous consent 
that statement be allowed into the record and to thank him and 
the staff for all the work they have done on this issue.
    Mr. Chairman, it is clear to me that the Federal Government 
must commit significantly more resources to the security along 
our northern border. A couple of weeks ago, as it happens, my 
wife and I happened to travel back from Canada, we spent a few 
hours on the other side of the border, and we had the 
opportunity to speak with some of the Border Patrol people 
right here in this particular facility, and I was informed 
about the kind of hours, increased hours, that many of the 
people here are currently putting in. And I want to thank them 
on behalf of all Americans for really stepping up to the plate 
in these difficult times. Clearly, given the changing world 
that we are living in since September 11th, there's no 
question, I think, in anybody's mind that our people along the 
border are going to need significantly more help than they 
currently have, and it's our job to make sure that they get 
that help.
    Recently, legislation was passed which authorizes a 
tripling of the number of Border Patrol officers, INS 
inspectors and Customs Service employees along the northern 
border. Money was also authorized to improve technology for 
this purpose, but as the chairman knows, within the world of 
Congress, an authorization does not necessarily mean an 
appropriation. There's a difference.
    Last month, however, Congress did appropriate $40 billion 
in response to the terrorist attacks, and I intend to do all 
that I can to make certain that some of that money is released 
as quickly as possible to improve our security requirements 
along the northern border.
    Increased technology and increased money is one thing, but 
using those assets effectively is something else. For example, 
how do we increase security and manpower on the border, while 
not keeping automobiles and trucks waiting for hours before 
they cross into Canada or into the United States? How do we pay 
increased attention to terrorism, as we must, while not 
neglecting our long-term concerns about illegal drugs and other 
law enforcement issues?
    Can we accomplish these goals? Absolutely. We sure can. But 
it's going to take some good thinking through these issues in 
order to be effective, and that is why a hearing like this is 
so important. It allows us to hear from the people on the front 
lines, the people who are doing the actual work in protecting 
our border, and the business people and citizens of the local 
community who will live with the consequences of the new 
decisions being made.
    So Mr. Chairman, I want to thank you again for holding this 
very important hearing, and I look forward to working with you 
in the months to come.
    [The prepared statement of Hon. Bernard Sanders follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.001
    
    [GRAPHIC] [TIFF OMITTED] 81864.002
    
    Mr. Souder. Thank you. Before proceeding, I'd like to take 
care of a few procedural matters. First, I ask unanimous 
consent that all Members have 5 legislative days to submit 
written statements and questions for the hearing record, and 
that any answers to written questions provided by the witnesses 
also be included in the record. I also ask unanimous consent 
that all exhibits, documents and other materials may be 
included in the hearing record, and that all Members be 
permitted to revise and extend their remarks without objection 
is so ordered. And I would like to insert into the record an 
article from the Burlington newspaper this morning saying, 
``Border Tests Show Media to be . . .'' I thought this was a 
very good article that illustrates--and we'll be looking for 
other things that are regionally oriented--that illustrates 
that we aren't playing ``gotcha.'' We're trying to figure out 
how to work together, and there's been a lot of gamesmanship 
around the border. We all know it's impossible to catch 
anything everywhere, but we want to work together as much as 
possible to catch people who aren't following the law.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.003
    
    Mr. Souder. Now, would the witnesses on the first panel 
please come forward, and before you sit down, if you'll stand 
and raise your right hands. Is is the standard practice of this 
committee to have everybody testify under oath. Do you swear 
that the testimony you'll give today is the truth, the whole 
truth, and nothing but the truth, so help you God?
    Let the record show that the witnesses both have answered 
in the affirmative. You'll now be recognized for your opening 
statements, if you can summarize in 5 minutes, because we have 
a large number of witnesses, and we'll insert your full 
statements in the record, in addition to any other information 
that you want to submit.
    So first off, from INS, Jean Ouellette.

    STATEMENT OF JEAN R. OUELLETTE, DIRECTOR, INS, PORTLAND 
                            DISTRICT

    Mr. Ouellette. Thank you, Mr. Chairman, Congressman 
Sanders. I want to thank you for the opportunity to address you 
today on behalf of the Immigration and Naturalization Service, 
the Portland District, concerning issues relating to the 
northern border. I've been working with the Immigration and 
Naturalization Service for more than 30 years. I've been 
closely involved with the management of the inspections program 
in INS for most of my career.
    The INS, an agency under the Department of Justice, now 
with over 30,000 employees, enforces and administers the 
Immigration and Nationality Act, as amended. Our employees 
prevent the illegal entry of aliens into the United States, 
facilitate the admission of legitimate travelers; arrest, 
detain and remove criminal aliens; and administer requests for 
benefits such as naturalization. Immigration inspectors are 
stationed at airports, seaports, and land border ports of entry 
such as this one here at Highgate Springs, VT.
    The Portland District has jurisdiction of the States of 
Vermont and Maine and the port of entry at Pittsburg, NH. The 
border with Canada in this area extends over 600 miles from the 
eastern shore of Lake Champlain in Vermont, to the port of 
entry at Lubec, ME, on the Maine coast.
    INS maintains staff at 31 land border ports of entry, as 
well as at international airports in Portland and Bangor, and 
conducts seaport inspections at numerous locations along the 
Maine coast. The district currently has 137 full-time 
Immigration inspectors and 76 part-time or seasonal inspectors. 
These inspectors, working with the U.S. Customs inspectors, 
examine over 13 million applicants for admission per year. 
Other staff located at the district office in Portland, and at 
a sub-office here in St. Albans, VT, are dedicated to interior 
enforcement, to detention and removal, to benefits 
adjudications, and to support functions.
    Highgate Springs is one of four major ports of entry in 
Vermont. Twelve other smaller facilities report directly to 
these four major locations. Highgate, which was constructed in 
1997, is our newest facility. Alburg, a joint facility with 
Canada, was constructed and opened in 1988. Other facilities 
date back to the early 1930's.
    The 63 Immigration inspectors and 19 part-time seasonal 
inspectors in Vermont examine over 3\1/2\ million applicants 
per year. The master port at Highgate, including its subports, 
has a staff of 29 inspectors, 18 of whom are stationed here at 
the Highgate location. Six smaller locations report to this 
facility. During fiscal year 2000, over 1 million applicants 
for entry were processed at the Highgate location itself.
    Immigration inspectors are trained and tasked with 
determining admissibility of applicants for admission in a 
fair, consistent and timely fashion. The great majority of 
applicants at land border ports of entry are admitted after 
questioning in their vehicle by an Immigration or a Customs 
officer, and a review of their documents and their demeanor, 
and other such aspects. Individuals determined to need further 
questioning prior to a determination of their admissibility are 
directed into the port of entry for further questioning and 
further processing by another officer.
    Since the tragic events of September 11, 2001, the ports of 
entry have have been placed on the highest security alert. The 
alert entails more extensive inspections, closer scrutiny of 
individuals, their documentation, and their vehicles. 
Inspectors have been asked to work longer hours in order to 
increase presence at the border and to process traffic timely. 
Others have been detailed to other locations to assist in 
traffic management.
    The INS and Customs have a special relationship, because of 
our shared responsibilities at ports of entry. We work closely 
at all levels, exchanging information, and assigning personnel 
as needed to manage traffic. The Border Patrol is an essential 
element in the border area, since its agents control the areas 
between the designated ports of entry.
    Canada is also a full and important partner in the northern 
border. Law enforcement agencies on both sides of the border 
share intelligence on a daily basis. They participate in 
regular meetings to share information for their own local areas 
and join in task forces to address shared concerns and 
problems.
    Immigration inspectors continue to closely screen 
applicants for admission, providing security for the country. I 
am especially proud of the men and women of the Portland 
District for the extraordinary work they perform and continue 
to perform on a daily basis. Thank you.
    [The prepared statement of Mr. Ouellette follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.004
    
    [GRAPHIC] [TIFF OMITTED] 81864.005
    
    [GRAPHIC] [TIFF OMITTED] 81864.006
    
    [GRAPHIC] [TIFF OMITTED] 81864.007
    
    [GRAPHIC] [TIFF OMITTED] 81864.008
    
    Mr. Souder. Thank you very much.
    Now we recognize Mr. Spayd.

  STATEMENT OF PHILIP W. SPAYD, DISTRICT FIELD OFFICER, U.S. 
                            CUSTOMS

    Mr. Spayd. Thank you. Thank you for the invitation to 
testify and for providing me the chance to appear before you 
today. I would like to discuss the efforts of the U.S. Customs 
Service to address the terrorism threat and the challenges that 
exist along the U.S.-Canada border, commonly called the 
northern border.
    As the guardian of our Nation's border, Customs plays a 
major role in the great struggle against the forces of terror 
in which America is now engaged. The Customs Service enforces 
over 400 laws and regulations for more than 40 Federal 
agencies. Naturally, the northern border is a major focus of 
our efforts. Protecting our broad, expanding economic ties with 
Canada, while preventing terrorists from exploiting increased 
traffic flows is our goal on the northern border.
    The immense flow of trade and travel between the United 
States and Canada requires that our two nations continue to 
work together to enhance the protection of our vital interests 
at this critical time. Trade and travel between the United 
States and Canada has jumped dramatically since the 
implementation of NAFTA in 1994. The area port of Highgate 
Springs, VT, consists of eight land border ports, plus the port 
of Burlington. The area port stretches from Alburg on the west, 
through the major port of Highgate, here on Route 89, to East 
Richford, VT. These ports are the main link between the 
metropolitan areas of Montreal and Quebec City and Boston and 
the rest of New England.
    During the last fiscal year, over one-half million 
passenger vehicles and nearly 130,000 trucks entered the United 
States through the area port of Highgate Springs. Over $5 
billion of commercial goods entered through the area port of 
Highgate last year alone.
    The Customs Service was addressing security along our 
frontier with Canada well before the attacks of September 11th. 
The previous arrest of an Algerian terrorist, the millennium 
bomber, Ahmed Ressam, by Customs inspectors at Port Angeles, 
WA, in December 1999, is an example of our previous efforts. 
That arrest also set into motion a range of efforts to bolster 
security along our northern flank.
    In response to the terrorist attacks of September 11th, 
U.S. Customs Service immediately implemented a level one alert 
for all personnel at all ports of entry. This is our highest 
state of alert, calling for sustained, intensive anti-terrorist 
operations. We remain at level one alert today.
    Under level one alert, all ports of entry have increased 
vehicle, passenger cargo and mail examinations commensurate 
with the threat at their location. On the northern border, we 
have suspended remote inspection reporting systems, and are 
staffing every port of entry with at least two officers, 24 
hours per day, 7 days a week. In order to meet the demands of 
maintaining this high state of alert, nearly 100 additional 
Customs inspectors have been temporarily detailed to northern 
border posts, to ensure that this minimum staffing requirement 
applies even to our most remote locations.
    In addition to the Customs Service's enhanced efforts and 
in keeping with the tradition of partnership that has always 
marked the close relationship between our two nations and 
Customs agencies, Canada Customs has pledged their full support 
and cooperation in preventing terrorists and the implements of 
terrorism from transiting our northern border. We are working 
on a priority basis with Canada to identify additional steps to 
be taken now, to enhance security. We have also been asking for 
the public's and the trade community's patience as we work to 
protect our Nation from the immediate threat, without turning 
the border into an obstacle to legitimate trade or our 
lifetime's freedom of movement, although traffic volume has 
been markedly lower since September 11th.
    Despite initial concerns about our level one alert placing 
an undue burden upon normal border flows, we have in fact 
succeeded in reducing waiting times at the border to the levels 
they were at prior to the September 11th attacks. Cooperation 
with our partners from Customs Canada and in the business 
community has been instrumental to our success.
    As some of you know, some of our Customs facilities on the 
northern border need to be updated. Although this main port at 
Highgate is a modern facility constructed in 1997, many of the 
other facilities in the area date back to the 1930's-era ports, 
such as Alburg and Morses Line.
    To improve these facilities, Customs recently was provided 
with $20 million for resources and technology to support 
northern border security and aging infrastructure. Equipment 
will be deployed to various northern border locations. These 
nonintrusive inspection systems enhance the agency's ability to 
inspect vehicles and cargoes crossing the border, without 
impeding the steady flow of commercial traffic. Customs 
inspectors along the northern border are also currently using 
other technology, including radiation detectors to detect 
radioactive material used for weapons of mass destruction and 
vapor trace technology to help us detect the presence of 
narcotics.
    In addition, the Customs Service plans to use part of this 
$20 million in new funding to enhance the security of the ports 
of entry along the northern border by investing in key elements 
of infrastructure. There are many roads which connect to the 
border which are unmonitored and allow for individuals or small 
groups to gain entry undetected. Most remote, limited-hour 
ports of entry have no monitoring or assessment capabilities. 
Our infrastructure investments will be prioritized to those 
locations that have the highest risk. The Customs Service plans 
to install digital video security systems, which can call 
remote monitoring locations, when they are enabled, at selected 
locations. These systems will complement our existing systems.
    The Customs Service also plans to install additional 
lighting and appropriate barriers, gates, bollards at those 
locations that lack barriers to prevent unauthorized vehicle 
crossings, and to increase officer safety and deny anonymity to 
law violators.
    From an overall perspective, the vast volume of trade and 
traffic on the northern border has put immense pressure on our 
ability to enforce the Nation's laws while facilitating 
international trade, even before September 11th. After 
September 11th, our challenge has risen to a new level. 
Although we have taken many steps to address these challenges, 
such as the planned improvements at our facilities and the 
temporary detailing of additional Customs inspectors to the 
northern border, we still face many challenges.
    We are working with the Treasury and within the 
administration to address these challenges. For example, we are 
developing threat assessments and a longer-term perimeter 
security strategy for dealing with them, to secure our homeland 
defenses, including the northern border.
    In considering such a long-term plan, several core 
questions need to be addressed. First, how do we measure the 
added protection or risk reduction we will realize from 
additional investments on the border? How will Customs' plans 
properly interact and integrate with the other border agencies, 
the intelligence community, and the DOD? What are alternative 
means of securing our far-flung border crossings? What is the 
best system for securing the vast amounts of cargo coming 
across the border?
    I want to thank you, Mr. Chairman and Mr. Sanders, and the 
members of the subcommittee for this opportunity to testify. 
The Service will make every effort possible, working with our 
fellow inspection agencies within the administration, and with 
congressional leaders, our Canadian counterparts, and the 
business community, to address your concerns and those of the 
American people. Thank you.
    [The prepared statement of Mr. Spayd follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.009
    
    [GRAPHIC] [TIFF OMITTED] 81864.010
    
    [GRAPHIC] [TIFF OMITTED] 81864.011
    
    [GRAPHIC] [TIFF OMITTED] 81864.012
    
    [GRAPHIC] [TIFF OMITTED] 81864.013
    
    Mr. Souder. Thank you both very much. I can start the 
questioning. Mr. Spayd, you're based out of the Boston office?
    Mr. Spayd. Yes, I am.
    Mr. Souder. And Mr. Ouellette, are you----
    Mr. Ouellette. Portland.
    Mr. Souder. You said, Mr. Spayd, that you transferred 100 
additional Customs inspectors to the northern border. Is that 
across the country?
    Mr. Spayd. That's across the northern border, yes.
    Mr. Souder. How much of that was from the Boston region?
    Mr. Spayd. Fifteen were transferred from the Port of Boston 
to the Ports of Maine and Vermont.
    Mr. Souder. Have you had a similar transfers?
    Mr. Ouellette. We've had smaller transfers within the 
district itself, from ports in Maine that were less affected, 
other locations that needed extra traffic management.
    Mr. Souder. To meet the challenges that you're being asked 
to do, how many additional agents would you say will be needed, 
and let's talk about the Vermont border while we're here. Do 
you feel that with the additional transfers in from Customs, if 
you were able to sustain that number? Mr. Spayd, do you have 
any suggestion?
    Mr. Spayd. No, the 15 are not enough. We're getting by 
with, as Representative Sanders mentioned, immense amounts of 
overtime here, which, due to the extraordinary diligence of our 
employees, we're working very hard, we're getting by, but that 
would not sustain us over the long term. Customs has 
reallocated 50 positions to the northern border--and I 
apologize, I think of the northern border as Maine and Vermont.
    Mr. Souder. Right.
    Mr. Sanders. We're parochial. We don't see the west coast, 
midwest.
    Mr. Spayd. The 50 people which we are now hiring for, which 
will be helpful, but even that to sustain, and when you take 
your tour outside and see what it really takes to sustain level 
one operations, at a much different level than you normally 
operate at, that 50 will still require a lot of overtime and 
reduced vacation time for people.
    Mr. Souder. So ideal would be more than 50?
    Mr. Spayd. Yes.
    Mr. Souder. Would 50, at a level one, actually result in 
what you're having to search for now--a reduction in other 
things that Customs is searching for?
    Mr. Spayd. Well, let me answer it this way: We need to 
think in terms of the division between the primary vehicle 
processing and the commercial processing. Now, a port like 
Highgate gets a lot of Canadian cargo. It also gets 
international cargo from around the world through the ports of 
Montreal and through the ports of Halifax, and there's rail 
connections between Halifax and Montreal. So that cargo is true 
international cargo, and to sustain intensive examinations of 
that cargo is another area and would require an additional 
addition of employees to look at that cargo thoroughly, in a 
way that allows the legitimate cargo still to move relatively 
quickly through the port.
    Mr. Souder. Mr. Ouellette, how about you?
    Mr. Ouellette. On the short term we can handle the traffic 
that we're doing at this point, with the staff we have on duty, 
but it is requiring, as you mentioned, longer hours for all 
officers, and overtime. We can sustain that for a short term. 
Long term, we do need additional resources. I can't give you an 
exact number; we're still working with our headquarters to come 
up with that. But for the longer term, it would require fairly 
substantial increases in resources. Not just personnel--I think 
you will--you'd have to be looking at changes in the 
infrastructure itself as well as changes in the technology we 
use.
    Mr. Souder. Do you believe it's possible--are you fully 
staffed with all the vacancies you have in INS and Border 
Patrol in this region?
    Mr. Ouellette. I can't speak for Border Patrol, because 
that's a different chain of command. In the Portland district, 
which I can speak for, the inspection forces, our vacancies are 
fairly minimal on the permanent Immigration inspector staff. We 
have more difficulty in recruiting seasonal and part-time 
inspectors, because of the labor situation. It's a very, very 
difficult labor market. We're having difficulty recruiting 
those people, but for the permanent staff, we have very few 
vacancies.
    Mr. Souder. In INS and in Customs, if you increase--if you 
could do this in two parts: One is, where do you think your 
local recruits would come from? How hard would that be to find 
the boost-up in the region, and how long does it take to train 
them?
    Mr. Ouellette. We're fairly fortunate in locating 
applicants for our permanent positions. We use the Outstanding 
Scholar Program, visiting the colleges and universities in the 
area and recruiting from that pool. We also use people who are 
military veterans who've retired from the military or left the 
military, and often will be able to fill our slots from that 
pool. And so we've been fairly fortunate. We'll continue doing 
that. We've never hired in large numbers, as perhaps we'll be 
looking at in the future if Congress and the administration 
does go forward with the recommendations. So we've never faced 
large numbers of increased personnel at one time.
    Mr. Souder. Mr. Spayd.
    Mr. Spayd. Customs recruits on a national basis, and the 
recruiting is all done through our Washington, DC, Office of 
Human Resources Management, and there is a quite a rigorous 
screening process. People need to take and pass a test, they 
need to pass a group interview. Once they're hired, they need a 
full background check, and they need, I believe, 15 weeks of 
training, so it does take a while to get people. However, in 
the ongoing recruitment, there are people always in the 
pipeline, and I do know that of the 50 that we are going to add 
in Maine and Vermont, that some number of them are already in 
that pipeline, and we're expecting them relatively soon.
    Mr. Souder. Thank you. Mr. Sanders.
    Mr. Sanders. Thanks. Mr. Spayd, you indicated that you're 
aware that some of our present employees are working very, very 
long hours under a lot of stress. What kind of hours are people 
working today?
    Mr. Spayd. Well, on a 2-week--a northern border inspector 
on a 2-week pay period is averaging 31 hours of overtime every 
2 weeks.
    Mr. Sanders. 15 hours a week or so?
    Mr. Spayd. 15 hours a week.
    Mr. Sanders. OK. Is that a--given the stress and the detail 
that's involved, can people continue to work those kind of 
hours and continue to do the job that we need?
    Mr. Spayd. Not much longer, no.
    Mr. Sanders. So we need help and we need it soon is what 
you're implying. Mr. Ouellette.
    Mr. Ouellette. I think we're facing the same situation, 
that for the short term we can maintain this kind of activity, 
but not for a long term. Our people are working 6 days a week 
and often working 10-hour days during that time.
    Mr. Sanders. And when you're asking people to be ever so 
careful, I mean that's a hard thing to do?
    Mr. Ouellette. It is. It's very difficult to work long 
hours and to be as efficient as you would be in a normal 
situation.
    Mr. Sanders. Mr. Spayd, in your statement, you make a 
statement, you state, ``There are many roads that connect to 
the border which are unmonitored and allow for individuals or 
small groups to gain entry undetected.'' Post September 11th, 
can we afford that luxury anymore?
    Mr. Spayd. Well, most of the roads--the word 
``unmonitored'' in this statement means unstaffed by Customs 
people.
    Mr. Sanders. Right, I understand, yeah.
    Mr. Spayd. The roads are monitored by the Border Patrol, 
and places of egress into the United States or entry into the 
United States are monitored by the Border Patrol, and I don't 
want to speak for the Border Patrol, but I think it's well 
known--you can certainly read this in the newspapers--that 
there are not a lot of Border Patrol agents on the northern 
border, and that in order to respond to intrusions at those 
monitors, I think is a question that should be addressed with 
the Border Patrol and their staffing.
    Mr. Sanders. Right. Mr. Ouellette.
    Mr. Ouellette. As far as the roads into the United States, 
they are being monitored by the Border Patrol through their 
sensors and all of their technology that's available to them. 
You may have read recently that some news agents tested that 
system, and they were apprehended by the----
    Mr. Sanders. My favorite news agency. I'm glad you got 
that.
    Mr. Ouellette. So they were apprehended in their attempt to 
cross without inspection. So the Border Patrol are very active. 
We're very fortunate to have them.
    Mr. Sanders. Let me ask both of you an overview. We don't 
have a whole lot of time, but as the chairman indicated, the 
challenge that we face is post September 11th, doing an even 
stronger job in security, doing everything humanly possible to 
keep terrorists from coming into this country, continuing to do 
the work that we've always done in terms of narcotics and other 
criminal-types of activity, and at the same time, not 
disrupting the very strong flow of commerce and tourism that 
exists between the United States and Canada, can we accomplish 
that goal? Give me an overview, some of your general thoughts 
as to how we can do those things. Mr. Spayd, you want to 
respond?
    Mr. Spayd. Well, can we do it? I mean it's a long order, 
and in terms of drug interdiction, it is not a high-risk port, 
although we are seeing increasing marijuana seizures moving 
mainly from the west to the east, but after September 11th, it 
became a high-risk border almost instantly. In order to get the 
border to where we need it to be, I believe is a question of 
people, a question of technology, a question of intelligence, 
and information. In addition to technology, the right analysis. 
The fact is, the vast majority of people crossing this border 
are doing it for perfectly legitimate reasons.
    Mr. Sanders. Of course.
    Mr. Spayd. In Vermont, here, they may be going to church, 
going home on the other side, but so the right risk management 
approach, using better intelligence from wider sources, 
undoubtedly technology, undoubtedly more people, all of which 
arranged in the way where each agency does what it is best 
equipped to do, is, to my mind, the formula for a system that 
very much upgrades the border security.
    Mr. Sanders. OK, Mr. Ouellette.
    Mr. Ouellette. I think it's a three-part solution. I think 
you have to look at resources; manpower, obviously; and the 
efficient use of that manpower; you have to look at technology; 
you have to find ways to separate the individuals to whom you 
want to speak and those who we think are less of a risk, to 
separate the people who need more interrogation from the 
others. And then you have to look at the sharing of 
intelligence. I think it's an important issue today where all 
law enforcement agencies share the intelligence that's 
available and share the----
    Mr. Sanders. Do they do that enough right now?
    Mr. Ouellette. I think there's always room for improvement. 
I think it's being done on a local basis, and I see that every 
day, but I think it needs to be reemphasized globally, that the 
sharing of intelligence on an international basis is crucial to 
all the countries of the world.
    Mr. Sanders. And how do we do with our Canadian friends? 
Are you happy with the relationship?
    Mr. Ouellette. Yes, we are. The officers at ports like 
Highgate belong to intelligence groups that meet regularly to 
share information on both sides of the border. Canadians, their 
law enforcement agencies, the RCMP, with our own Border Patrol, 
Immigration, Customs, and other agencies. Local and State 
police are involved in those, as well.
    Mr. Sanders. OK. Well, we've got a job on our hands. We 
look forward to working with you in the coming months. Thanks.
    Mr. Souder. Thank you.
    Mr. Ouellette. Thank you very much.
    Mr. Souder. I have a couple of additional questions I want 
to ask, and some of these we may want to put into the record. I 
just want to say for the record, too, that I'm one who's a 
little more nervous on the intelligence-sharing than some, and 
I have a feeling Congressman Sanders shares some of these 
concerns. One is rapid expansion means we're more likely to 
have the ability to be penetrated in our intelligence 
operations. Also, intelligence is often rumor, and the more 
people you have with access to the rumors and the less 
experienced people you have, the more it can spread in the 
community if it's--in this type of stuff gets into part-time 
people and so on. I know we have very professional government 
people, but as you start hooking up State and local police and 
all sorts of individuals with the intelligence--doesn't mean 
it's necessarily hard stuff, as you all know--and it's a very 
sensitive thing that we're trying to work through.
    A couple of additional things: You've mentioned a little 
bit of infrastructure required in your region. What would you 
say are the most important priorities, particularly here in 
Vermont, in infrastructure? You mentioned the border crossings 
at Alburg and a couple of--Anything else? Equipment? Maybe you 
can give it for the record if you don't have it in front of 
you, because we'd like to know some particular things.
    Miss Daniels is a friend of mine in O & B. I'm asking you 
for a clear list, and I think both of you made it clear in your 
statement what there has to be, but if you had a wish list. 
Similarly, if you boost up the number of employees, is housing 
sufficient in this area, or are we looking at any government 
housing needs for new agents?
    Mr. Sanders. Yes, we have an affordable housing crisis in 
the State of Vermont.
    Mr. Souder. Do we need more vehicles in the Border Patrol 
if you boost up your agents?
    Mr. Ouellette. I can't respond to the Border Patrol; sorry.
    Mr. Souder. I forgot, I apologize. What about in the 
Customs? Do you know how many borders in your region use a form 
3461?
    Mr. Spayd. Well, no, it's a hard question to answer. The 
3461 is the fundamental Customs entry form for release of 
documents, so we have a number that's our main system on the 
northern border. We use what's called a 3461-alt, which 
requires somewhat less information, and I don't want to get 
into too many of the weeds, as they say, but because of the 
difference of the northern border, the truck traffic which 
arrives very quickly, but we use the 3461-alt, and then we have 
what's called BRASS, which is a variation for low-risk 
importers, and we use another system called BREL, which is for 
shipments of less than $2,000.
    Mr. Souder. What about the automated manifest?
    Mr. Spayd. Well, again, the----
    Mr. Souder. Similar?
    Mr. Spayd. No, it's different from the border than the rest 
of the country. The only automated manifest information that we 
get on the border is rail. Again, because we haven't solved the 
problem of the decentralized idea that trucks are constantly 
leaving places and moving, and getting that advanced manifest 
information per truck, we haven't solved that problem, where we 
have in terms of air and vessel, where we get all the manifest 
information in an automated sense prior to the arrival of the 
conveyance.
    Mr. Souder. What about automated broker interface? Similar?
    Mr. Spayd. That's used throughout the region.
    Mr. Souder. Do you see more pressure? Are we looking at how 
to address these things? Could that speed up the time at the 
border, or is this just unmanageable?
    Mr. Spayd. Well, that's my next meeting. I'm addressing 150 
Boston trade people on this question on Tuesday. It's the 
question of how do we get the information that we need so we're 
not having cargo enter the United States without a full and 
detailed understanding of who shipped it, what it is and where 
it's going. And I think there's some difficult questions that 
need to be addressed. There is some legislation out there that 
poses different alternatives, but I think a lot of discussions 
need to be undertaken about how Customs can get the information 
in a way that doesn't impede the legitimate trade.
    Mr. Souder. And as you pursue that, one of the questions 
is, do we need--what type of technology would we need to be 
able to implement that so we don't have the backups, because 
pressure is certainly going to be on to do more thorough 
checks. We've never really had this focus on the northern 
border before. At the southern border, we've invested in all 
kinds of equipment and fast-pass systems and everything else, 
but in the northern border, we just--it's pretty much somebody 
who's crossed it frequently, there's never been much 
comparative auditing. In trucking, there's been a little bit 
more, but in Indiana, when they come back and forth with auto 
parts multiple times a day, it's a whole different ball game.
    On the other hand, there's been a lot of inability of 
Congress to fix some of these problems long-term, because 
there's been hollering, historically, that there's been 
discrimination. So the northern border was already tightening 
because of the pressures on the southern border, which are 
still great, and we've had this big bog-down in Congress over 
the trucking question in the southern border, which is then 
putting political pressure on the northern border. And now with 
the terrorist question added to that, we can kind of see these 
kind of things coming and agree we can head them off before we 
get into the 4-hour backups like in San Diego would be helpful. 
Thank you very much for testifying.
    Mr. Spayd. You're welcome.
    Mr. Souder. If the second panel could now come forward. Mr. 
Paradis, Mr. Dion, and Mr. Lariviere, if you could take the 
oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses have 
answered in the affirmative. It's a privilege to be joined 
today by our colleagues from the Canadian Parliament, the House 
of Commons, Mr. Denis Paradis. We're very pleased to have you 
with us, and we recognize your opening statement.

  STATEMENT OF DENIS PARADIS, MEMBER OF PARLIAMENT OF CANADA, 
                        HOUSE OF COMMONS

    Mr. Paradis. Thank you, Mr. Chairman, Congressman Sanders. 
Thank you for this opportunity to meet with your subcommittee 
about issues at the Canada-U.S. border that concerns us all. 
The terrible events of September 11th have given new meaning to 
the words ``neighbor'' and ``community.'' They have emphasized 
to us all the importance of supporting each other through good 
times and bad times. Indeed, our world is not the same since 
terror struck at the very heart of our shared community. We 
have been given a challenge with profound implications for our 
two nations.
    The Canada-U.S. border is a powerful symbol of the 
relationship between our countries. Our border reflects our 
friendship, our common values, and the fact that Canada and the 
United States have the same interests in facilitating trade and 
travel. Indeed, the human reality stretches across both sides 
of this, some people would call it, imaginary line. While some 
villages sit right on top of the fence, Canadians and their 
ancestors before them have populated many of the northeastern 
cities and parishes, even giving their name to some of them.
    We had the same interests before September 11. We have the 
same interests now, but our environment has changed 
dramatically. We must rise to this new challenge together and 
ensure we address new risks while protecting our people and 
prosperity. We must work together to merge best practices and 
develop common programs that serve our common interests.
    The spirit of cooperation between our countries has 
produced tremendous benefits to both our nations. We have 
brought together a huge market that represents over $2 billion 
a day in trade. Millions of jobs on both sides of the border 
depend on trade and the continued integration of our two 
economies.
    On average, 300,000 people and 40,000 commercial shipments 
enter Canada every day. And while we're talking numbers, let me 
add that for 21,000 people arrested at the Canadian border with 
a criminal record coming from the United States. In the year 
2000, 14,000 were arrested going into the U.S.A. From Canada.
    Coming back to the trade issue, 80 percent of our exports 
are going south, while 25 percent of yours are finding buyers 
on our side of the border.
    As elected member for Brome-Missisquoi, my electoral 
constituency expands all the way from the Richelieu River near 
St-Jean, Quebec, to Lake Memphremagog, with nine border 
stations along the line and some international small roads with 
no border stations at all. I am therefore highly preoccupied by 
the outcome of this situation.
    Given these realities, Canada was already moving forward 
with a new vision for improving the way we manage the border. 
In April 2000, Minister of National Revenue, Martin Cauchon, 
launched the Customs Action Plan. This plan sets out a series 
of reforms based on risk-management principles of advance 
information, preapproval, and self-assessment.
    Given the events of September 11th, it's even more 
important that we proceed with this plan. It remains a solid 
strategy for meeting the challenges we face--maintaining high-
level security and at the same time keeping our nations' 
economies strong. Obviously, the Customs Action Plan did not 
anticipate the crisis that we now face, but it serves us well 
in our new circumstances. In fact, we are accelerating the 
security initiative of this plan that should be in place in the 
next month.
    The Government of Canada is providing additional funding of 
$21 million to the Canada Customs and Revenue Agency for new 
technologies and increased staff at our airports and seaports. 
Bill S-23 is the legislative authority for the implementation 
of the initiatives in the Customs Action Plan.
    As vice-chair of the House of Commons Committee on Justice, 
I am pleased to report that the bill now requires only the 
final stage of approval, which is the Royal Assent, in order to 
proceed with implementation of the Customs Action Plan. Our 
Justice Committee is also working very hard to complete the 
study of new authorities for strengthening security at our 
airports by allowing us to receive advance information on 
passengers on international flights. This is the same 
legislation our colleagues in the United States are now working 
on.
    The legislation also allows us to implement programs 
announced last year which are aimed at facilitating the entry 
to Canada of frequent low-risk travelers. NEXUS is the name, 
and NEXUS is a good example of a program that facilitates 
legitimate travel. Canada and the United States each have their 
own programs to expedite low-risk frequent travelers. NEXUS is 
a shared program, giving the traveler one card to go both ways, 
using dedicated lanes. While both customs maintain the right to 
examine NEXUS users, travel is made easier with a NEXUS card. 
We know who those travelers are, and we have prescreened them 
against Federal data bases in Canada and the United States. 
Given the events of September 11th, we are now completing 
additional internal checks to ensure that all NEXUS 
participants are really low risk.
    On the commercial side, our new legislation lets us pursue 
a dramatic new reform called customs self-assessment. It 
enables us to move the processing of commercial shipments away 
from the border, and let me explain how it works. Pre-approved 
importers will be able to use their own business system to meet 
their trade data and revenue requirements; for example, by e-
mail. The Canada Custom and Revenue Agency supports this self-
assessment through regular audit activities.
    Customs self-assessment streamlines the customs clearance 
process and brings greater speed and certainty to the 
importation of low-risk goods. I believe it will be better for 
those companies involved. We will be able to manage the 11 
million transactions a year far more efficiently. It means 
better compliance and, more importantly, less congestion at the 
border. Customs self-assessment also allows us to focus 
resources on areas of high risk. The CCRA would like to develop 
this and similar programs with our colleagues at U.S. Customs.
    We need consistent approaches that work both ways, and we 
need to fast-track what is part and parcel of our daily life: 
Honest people and quality goods going through the border on a 
daily basis. It's in our mutual interest to manage risk as it 
shows up at the gate, way before it becomes a threat on our 
streets.
    Airports and harbors are the gateway for terrorists and 
other threats from the outside, and they should be dealt with 
accordingly in a mutually convenient approach.
    Let's work together to build a better-managed border not 
just for economic interests, but for our security interests. We 
all must make sure terrorism does not win. President Bush and 
Prime Minister Cretien have committed to work together to 
coordinate our efforts and fight this threat. Working together 
is the only way it will happen. That is the great history of 
our shared border and this is the key to our success in the 
future.
    Thank you for this opportunity, and I'll try to convince my 
colleagues in Ottawa to have the same democratic exercise on 
our side of the border, and I wish also to welcome you, Mr. 
Chairman, with the members of your subcommittee, to Ottawa, 
where we could arrange a joint meeting with our colleagues from 
the House of Commons. So thank you.
    [The prepared statement of Mr. Paradis follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.014
    
    [GRAPHIC] [TIFF OMITTED] 81864.015
    
    [GRAPHIC] [TIFF OMITTED] 81864.016
    
    [GRAPHIC] [TIFF OMITTED] 81864.017
    
    [GRAPHIC] [TIFF OMITTED] 81864.018
    
    Mr. Souder. Thank you very much for coming.
    Now, from Distribution Marcel Dion, we're pleased to 
welcome Mr. Sylvain Dion.

 STATEMENT OF SYLVAIN DION, PRESIDENT, DISTRIBUTION MARCEL DION

    Mr. Dion. Your Honor, members of the Congress, members of 
the Committee on Government Reform: For the past 2 weeks, the 
situation has clearly improved in regard with the crossing of 
the American borders by trucks. However, we will need a longer 
delay in obtaining the new Identification Standards from 
American Customs, birth certificates or passports. Previously, 
drivers' licenses were sufficient. We had a driver who was 
refused entrance at Champlain, NY, because he had only his 
driver's license and a photocopy of his application for a birth 
certificate. This is the reason why we need a longer daily to 
obtain their requested documents.
    Proposal to improve security, to facilitate commerce, and 
to ease travel between the United States and Canada: We think 
that border control must be reinforced in a way to facilitate 
northbound and southbound traffic. The European Union set the 
pace in that regards. During the 1980's, there was a card 
issued by the American Customs that was identifying the driver 
at Customs. This card was obligatory for transportation of 
containers inbound in the city of Detroit. It is almost a 
historical reminder, but we believe that the preapproved, 
updated, modern and performing driver's card could aim at 
facilitating the flow of commerce between our two countries. 
This new card should be issued for a Canadian driver as well as 
for an American driver. By the same occasion, it will 
contribute to their pride of being a professional driver.
    It could include the following elements: photograph, 
fingerprints, DNA test, criminal investigation by both 
governments, bar code, for northbound and southbound commercial 
traffic. Such a card should be previously approved by both 
governments. We sincerely think that such a card could improve 
the security and facilitate commerce between our two countries. 
We thank you for hearing us.
    [The prepared statement of Mr. Dion follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.019
    
    [GRAPHIC] [TIFF OMITTED] 81864.020
    
    Mr. Souder. Thank you very much. I appreciate also you all 
doing your statements in English. I know that it's really a 
compliment to yourselves that you're all bilingual. One of the 
interesting things that happened in my life is I was in Quebec 
City on my honeymoon, way back--as I'm older--in 1974, at the 
peak of the French-only in Quebec City, and my wife had to have 
her appendix out on the 4th day of our honeymoon in the 
University of Laval, and nobody spoke English except the night 
guard, and one nurse helped us through it. So I appreciate very 
much that you've been able to communicate to us better than we 
can communicate back sometimes, and appreciate that very much.
    Mr. Lariviere.

   STATEMENT OF GILLES LARIVIERE, PRESIDENT, WEST BROME MILL

    Mr. Lariviere. Having been involved in the transborder 
softwood and hardwood industries with the United States for the 
past 30 years, I welcome this opportunity to voice my concern 
over the control being considered or put into place in response 
to the September 11th disaster.
    To begin with, let me say that as a Canadian and a close 
neighbor, I sympathize wholeheartedly with you and hope that we 
and our children will be able to continue living in a peaceful 
America in the years to come. This being said, and as your 
leaders have been saying repeatedly, we have to go on with our 
lives and get back to our daily business. While we will try to 
do so in the private sector, it becomes the business of both 
governments to ensure that we can do so in the most unimpeded 
way, while at the same time ensuring the protection of all 
citizens against acts of terrorists of any form that could 
jeopardize our democracy and create civil unrest.
    In a more pragmatic way, while I do understand the need to 
fight terrorists and drugs at the border, I do think that it 
can be done without unduly affecting the normal flow of goods 
and people going routinely through our common border as part of 
one of the largest trade relationships in the world. My 
softwood and hardwood business, which has been in operation for 
the past 30 years, calls for 10 to 20 trucks a day to cross the 
border with wood coming from the United States. The most recent 
controls are significantly slowing down the trucks, with 2 to 3 
hours of waiting at the border and affecting both my costs and 
my capacity to deliver the goods in an orderly and timely 
fashion.
    With the devastating effect that the above-mentioned 
tragedy has had on the North American economy, we certainly 
don't need additional man-made obstacles to curtail even more, 
the potential of commerce. This being said, I am all for 
control aimed at terrorism and drug trafficking. They should 
and must be the object of control at the border. At the same 
time, with today's technology, it should be possible to deal 
with normal day-to-day commercial transborder activities in a 
streamlined and efficient way. Trucks entering the country on a 
daily basis could be permanently logged into a computer data 
bank by their permit number or license plate, and be processed 
at the Customs office. This way, control could still be done in 
a case-by-case basis should the need arise, and the regular 
flow of goods could be maintained. Wherever such practices are 
possible, there needs to be put into place. In any case, the 
goal should be to process the goods through the border in an 
orderly, timely and efficient way. It is only to the extent 
that this goal is met that both Canadian and U.S. business and 
consumers will be able to return to business as usual. Thank 
you, sir.
    [The prepared statement of Mr. Lariviere follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.021
    
    [GRAPHIC] [TIFF OMITTED] 81864.022
    
    [GRAPHIC] [TIFF OMITTED] 81864.023
    
    Mr. Souder. Thank you all very much for your testimony. Mr. 
Lariviere, and Mr. Dion in particular, do most of your trucks 
come across at I-89, or are you crossing at multiple points?
    Mr. Lariviere. All over the place.
    Mr. Souder. New York State, as well as in Vermont?
    Mr. Lariviere. Yes. Detroit.
    Mr. Souder. Detroit, as well? Have you seen--You've 
mentioned 2 to 3 hours' delay. Is that across the board that 
you're seeing? Is it greater----
    Mr. Lariviere. Yeah, it's greater at different ports, yes.
    Mr. Souder. In this region, what are you seeing?
    Mr. Lariviere. Yeah, here at this port here and the port of 
Lacolle is where it's the most longest time of waiting time.
    Mr. Souder. Do you see that, as well?
    Mr. Dion. Yes, but since 2 weeks, it's not as bad.
    Mr. Souder. It's improved in the last couple of weeks?
    Mr. Dion. Yes, yes.
    Mr. Souder. Do you believe that's predominantly--we'll ask 
the inspectors here--the number of inspectors or the number of 
lanes? Obviously, we need to try to move to the fast pass-type 
systems that you're all advocating, but that may take a while, 
as we're proceeding, partly as we've seen in the southern 
border as well, you alluded to the problem of getting the 
passports cleared. Part of this is in our Embassies, we're not 
used to the kind of pressure we're getting right now for the 
requests; that it's going to take a while to get that system 
up. In the meantime, but also even long term, if we have that, 
do you see this as a problem with the number of truck lanes, as 
well, or----
    Mr. Dion. If you had more truck lanes, that would be 
better, for sure.
    Mr. Lariviere. Yes, it would help, definitely.
    Mr. Souder. Mr. Paradis, have you seen much impact in the 
last 30 days, change on the trade and the tourism?
    Mr. Paradis. I mean the economy, it would be hard both on 
our side and your side after this September 11th events. And 
what we're looking now is that you just have to look outside 
here; it's a much longer line, people arriving from Canada 
entering in the States, than the contrary. I was pushing in my 
speech here that we really should improve--it should go further 
on the checking at airports and seaports, because if we can 
better control seaports and airports, I mean the whole America 
is more secure at this point, and that I think we will have to 
find--I'm listening to my colleagues here that are giving some 
kind of examples of the way it could be done immediately if we 
had some lanes for trucks, and but on the long-term, also, we 
should come to a solution that we should continue to explore 
together.
    Mr. Souder. One of the most difficult things we're going to 
have to work through, there are different pressures in the 
trucking area, whether it be logging or distribution, than 
there are in the human traffic. In other words, we can probably 
work with random inspections combined with the fast passes to 
figure out how to have kind of repetitive use or people who 
work across the borders. The less frequent travelers would 
participate--I'm curious, Mr. Paradis, how do you think this is 
going to evolve in Parliament? With the probable exception of 
Mexico, the United States has not only a tougher immigration 
standard historically, but a more enforced immigration. Canada 
has always prided itself on being much more open in its own 
immigration standards. That's part of the problem vis-a-vis 
Europe, where they have more commonality. Do you see that 
changing in Canada?
    Mr. Paradis. Yes, we do see that changing, because we're 
bringing changes in our administration for the immigrations, 
and it's in the process right now, so by April 2002, for 
example, we're issuing official cards for people that are in 
the country and that are Canadians, and they are waiting for 
the process. And there will be more security checks, also, and 
we are kind of improving on security basis the system for 
immigration.
    Mr. Souder. One of the things that we'll probably deal with 
a little bit tomorrow--it doesn't directly relate to the 
trucking--it predominantly relates right now to other customs 
and narcotics questions, but could indeed also start to relate 
in human traffic, which could be terrorists or other 
immigrations and how we deal with the Indian reservations, 
which are independent on the United States side, and the First 
Peoples of Canada.
    Could you explain to me briefly what kind of--in the United 
States, they have a whole separate police force that are 
independent and require a whole different cooperation 
structure. Is that true in Canada, as well?
    Mr. Paradis. I'm not too sure as to how they process in 
those reserves. But you don't have to go that far. I mean 
yesterday I went to visit a few border stations along my riding 
here, my constituency, and I've seen a place where--and there 
was three places not too far from here where people can cross, 
and there is--I mean at one point you triple your people at the 
Customs, you open all the trunks and everything, but 600 feet 
further, people can cross without nobody there. I mean that 
doesn't make sense, and those people in drugs or different 
circuits like that, they know that there is some kind of roads 
open like that. And just a small sign saying ``don't cross'' 
and police, like some others have said, are not always there to 
pick them up if they cross where they're not supposed to cross, 
so it's a kind of as complicated, maybe, here as it would be in 
Akwasasne or some other reserve.
    Mr. Souder. One of the things that becomes apparent from 
looking at a map--and in the next couple of days we're going to 
be looking at this question, as well--obviously the border 
isn't all land; that Lake Champlain comes up in a couple of 
points. Do you have any idea of what moves or how we might do a 
better job? Because you're right; if we strengthen the border 
crossing at one place, logic tells you that if you're not 
willing to follow the law, you're going to move around. Do you 
have any sense of what might move in water and how we might 
address that better?
    Mr. Paradis. On the lake?
    Mr. Souder. Yes.
    Mr. Paradis. Better surveillance on the lake, I imagine. 
Because you're right, the lake is kind of open and on both 
sides. So block maybe some roads that need to be blocked right 
now and where there is no port of entry, and better 
surveillance on the crossing of the lake.
    Mr. Souder. This is a huge problem, because tourism and 
boating, whether it be Lake of the Woods or Lake Huron, I mean 
people don't know an international boundary when they're going 
back and forth. Would that be a huge problem to try to watch 
that more?
    Mr. Paradis. There was a pilot project a few years ago on 
Lake Champlain, for example. It could be real easy if we would 
have a barge or a kind of a dock there where you put a Customs 
officer from United States and a Customs officer from Canada, 
and both there, so the boat stops, and there's not much 
different places where you can go through and just stop there 
and report if you're a Canadian or an American. Let's work 
together on that, and I think that would be easily fixable.
    Mr. Souder. Thank you. Mr. Sanders.
    Mr. Sanders. Thank you. Let me thank all three of you for 
emphasizing a very important point, and that is, while we 
obviously want to put more emphasis and do a better job in 
keeping terrorists out of both countries, we don't want to 
forget about the economy. Right now in the United States--I 
don't know how the situation is in Canada--we are entering a 
recession. So obviously we don't want to take action which will 
slow down our economy and create more unemployment, and thank 
you for making that point.
    Now, I should know this, and I apologize for not knowing 
this, but let me start off with Mr. Lariviere, and that is, if 
you have a truck driver who every week is going across the 
border?
    Mr. Lariviere. Every day, yes.
    Mr. Sanders. Every day. Is he treated the same way as 
somebody who has never come across the border and is coming 
across for the first time? Or is there a process by which your 
business that is going across the border, is there a process 
involved where we know that a truck--we know a driver comes 
across many, many times of the year?
    Mr. Lariviere. Yes.
    Mr. Sanders. We know who this guy is, we know what the 
material is, and that in some way or another we could expedite 
that process so that he is not treated like a new visitor?
    Mr. Lariviere. No, no, he's been treated very well, and 
there's no problem on that part. The only thing is it's the 
waiting time that's occurring right now with what happened.
    Mr. Sanders. No, but what I'm meaning, what I'm trying to 
get at, is he treated differently than somebody who's coming 
across for the first time? In other words, is there a process, 
if you're coming across many times and--a driver is coming 
across many, many times--shouldn't we have a process by which 
we anticipate him, we know him, if this is the guy, if this is 
the material, we do all that we have to do, but it should be 
different than somebody who we're seeing for the very first 
time?
    Mr. Lariviere. Yes, right.
    Mr. Sanders. You agree with that?
    Mr. Lariviere. Yes.
    Mr. Sanders. And that would expedite the process?
    Mr. Lariviere. That's right, yeah.
    Mr. Sanders. Right now, is there any procedure by which our 
people here know all of your drivers, who they are, that we 
have a list of them and we can identify them and so forth, or 
is it----
    Mr. Lariviere. Yeah, sure, because when they go through 
every day, they have their name, if it's the same customs 
officer.
    Mr. Sanders. But it's more informal than formal?
    Mr. Lariviere. That's right, yes.
    Mr. Sanders. So I think what you were trying to stress----
    Mr. Lariviere. To stress, to put it formal.
    Mr. Sanders. Figure out how we can get that information 
earlier to anticipate a truck coming and we can move that 
faster?
    Mr. Lariviere. Exactly, yes.
    Mr. Sanders. And I would gather that you would hope that 
with some of the additional money that we anticipate putting 
into this area, that we can have additional lanes so that the 
process can be expedited?
    Mr. Lariviere. Exactly, yes.
    Mr. Sanders. OK. Mr. Dion, you agree with that, as well?
    Mr. Dion. Yeah, no problem. But you had a new system 1 year 
ago you put in Windsor, a PAPS system, P-A-P-S, and I would 
like to know if it's effective here. Because with that new 
system, it's supposed to go more fast to clear the truck at the 
border. But we have 55 trucks. We didn't go with PAPS, because 
it's only good for Detroit, but maybe the PAPS system is very 
aware. We should go with there, just stick a sticker on the 
invoice, and when the truck comes to the gate, it's already 
clear. The Customs officers just have to make the immigration, 
``Are you Canadian? Do you have your passport? OK, have a good 
day.''
    Mr. Sanders. Well, it would seem to me that with all of the 
potential technology that we have, if we know when you are 
coming, if we know what you are bringing, if we know who your 
driver is, that situation should be different than somebody 
just traveling over the border for the first time.
    Mr. Dion. Right, but the PAPS starts just 1 year ago, but I 
know it was only for Windsor. But if that system would be able 
to take the system for Vermont and into Maine----
    Mr. Sanders. I don't know the answer. Mr. Chairman.
    Mr. Souder. My understanding is it's a pilot program, which 
we historically fund these things to test them, and I know, 
because I come from Fort Wayne, which crosses a lot in Detroit/
Windsor. I'm not sure that we're going to get a fair pilot test 
of it, because we've slowed down the border so much in general, 
but we will be having a hearing in Windsor with Susan Whalen, 
probably within 30 to 60 days, and we'll focus on that and 
we'll get back to you with that procedure, but it's the type of 
thing we should be doing across the country. We have a similar 
thing at the San Diego border.
    Mr. Sanders. My guess is that with the kind of technology 
that we have now, we should be able to expedite the process for 
regular commerce. That's the extent of my questions, Mr. 
Chairman.
    Mr. Souder. Well, thank you again. And we are certainly 
trying to evolve in this direction, many of us across the 
country, even if we don't have a district--I'm 120 miles from 
the border, but what we've seen is while we've lost many jobs 
in Mexico, we've had an increase in trade with Canada, some 90 
percent in the last 12 to 18 months. North American Van Lines 
has based their international headquarters in my district, so 
we have a lot of trucking questions going across the border, as 
well as increasingly Canadian-owned companies in the United 
States. It is a very active type of a trading situation.
    The American people, if I can just add this comment, and I 
look forward to continue to work with each of you. It is hard 
to understand the emotion coming off an evening watching the 
media, after New York and after the Pentagon attack and the 
anthrax, which many of us feel may not even be connected, but 
has made everybody so hyper, and false alarms all through the 
United States.
    We're in a situation in our own office buildings, my 
legislative director had to go in--because she had been in one 
of the offices in our building, she had to go in for her 
antibiotics yesterday, that I keep waiting for my beeper to go 
off, because so far they have not cleared my own office and own 
floor, the sixth and seven the floor. And it is a different 
feeling now that they're coming at us and they're going to keep 
coming at us, and finding that before the terrorists get in, if 
indeed these are even related, international border security is 
our only protection, and yet at the same time, if they collapse 
our economy, they've accomplished their goals. And so it's a 
delicate balance we're trying to work through, and as I pointed 
out in the first panel, is to be not penny-wise and pound 
foolish here, is that we may throw so many resources at 
something with so little return that in fact it either diverts 
resources, when we are chasing something that can't be caught 
and is so infrequent, and/or collapses our economy.
    So we thank you for our testimony today. This is what we're 
trying to do across our border.
    Mr. Sanders. If I may say so, it's terribly important that 
you continue to stay involved. I think we all have the same 
goals, and we need as many ideas as we possibly can achieve. 
Thank you very much.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that the witnesses have 
each answered in the affirmative.
    From the American Federation of Government Employees, 
representing INS, Stephen Duchaine.

   STATEMENT OF STEPHEN DUCHAINE, PRESIDENT HIGHGATE SPRINGS 
      CHAPTER, AMERICAN FEDERATION OF GOVERNMENT EMPLOYEES

    Mr. Duchaine. Thank you. Congressmen, thank you for 
inviting me to testify regarding our staffing situation on the 
Canadian border. My name is Stephen Duchaine, and I'm a Senior 
Immigration Inspector at this port of entry, Highgate Springs, 
VT. I'm also the vice president of AFGE Local 2076, District 1, 
which includes the Immigration Inspectors of Vermont. I just 
received my 30-year pin for government service, and I have been 
an inspector since 1980 here and in Laredo, TX. I'm also a 
third-generation Vermonter whose ancestors came from Quebec.
    The demographics of Canada have changed dramatically over 
the years. Canada has a very large immigrant community from all 
over the world. I've seen hundreds apply for refugee status at 
the Canadian port of entry opposite this one. Many arrived in 
the United States illegally, and some legally, but they went 
directly to the Canadian border to apply for refugee status, as 
I would see them walk along the interstate going north.
    I'm sure you remember Mr. Ressam, who was arrested in 1999 
trying to enter the United States in the State of Washington 
with a trunkload of explosives, but you may not remember that 
he was a resident of Montreal, Canada, only 40 minutes from 
this port of entry. Last year in the northeastern corner of 
Vermont, Lucia Garofalo was intercepted at a small port of 
entry, smuggling a suspected Middle Eastern terrorist to the 
United States. A few years ago, a Lebanese-born Canadian was 
caught with a pipe bomb in Richford, VT. Once again, they were 
all residents of Montreal. On September 8, 2001, at Highgate 
Springs, we refused entry to three Middle Eastern-born 
individuals who reside in Montreal under very suspect 
circumstances. I sent out an intelligence report September 10, 
2001, identifying all three. One clearly expressed to me his 
displeasure with the U.S. Government being a puppet of the 
Israeli Government.
    During normal monthly operations, we refuse entry to an 
average of 100 aliens. Usually 25 or so are based on criminal 
convictions. These numbers are only for this port of entry. I 
have successfully prosecuted over 50 felonies and seized over 
200 conveyances for immigration violations here at Highgate 
Springs. The cases involved commercial alien smuggling 
involving commercial trucks, documented false claims, including 
fraudulently obtained U.S. passports obtained by criminal 
aliens, and attempted reentry after deportation involving 
aggravated felons. I have two such cases pending now. Sentences 
received have been as long as 4 years in prison.
    One such case involved an IRA member who had been deported 
after being caught in an FBI sting trying to purchase stinger 
missiles. He was caught at this port of entry, trying to return 
to Boston.
    My local has long said it is inherently unsafe to work at 
the border ports with only one officer, and now that we are on 
level one alert, our service is now staffing these ports with 
two officers. They are even staffing ports 24 hours a day that 
are normally open only 16 hours. Most of the ports in Vermont 
are these small ports. No additional staffing has been 
authorized, so the additional staffing requirements have 
required a great deal of overtime.
    The average Immigration inspector in Vermont has been 
getting an average of 20 or more hours of overtime each week 
since September 12, 2001. All annual leaves have been canceled 
and days off lost, disrupting officers' personal lives. There 
are also serious health concerns when you realize the average 
age of inspectors. I will soon be 50 years old, and well over 
half the inspectors at Highgate are significantly older than I 
am.
    Many have health problems that these extra hours will only 
make worse. I will only mention my own. I am being treated for 
high blood pressure, and as of October 25, 2001, I was 
diagnosed with a sleeping disorder. My doctor recommends a 
reduction in my stress level and in my hours of work. At the 
rate of overtime that is being utilized in Vermont, many senior 
inspectors will reach the overtime cap before the end of the 
year, if their health holds up.
    If the overtime cap is not waived, then the 65 percent of 
the officers I estimate who don't reach the cap will have to 
work additional hours. More experienced officers would be 
unavailable for overtime assignments as the holidays approach.
    We have many very fine inspectors here in Vermont, but 
given the threat that we face, we must have additional 
inspectors or we must close some of the lower-traffic ports of 
entry and consolidate the staff where the most traffic is 
crossing. I do not believe Vermonters or the American public 
want border stations to be closed. I believe they feel safer 
knowing we are on guard. However, inspectors presently on duty 
have commitments to their families and community that are 
difficult to put on hold indefinitely, regardless of their 
dedication.
    Also tied to the staffing issue is the continuing problem 
of retaining our young inspectors. Our new INS Commissioner 
Ziglar, in his recent testimony to Congress, quickly identified 
this crucial issue, extending hope that inspectors will finally 
be recognized as law enforcement officers with the appropriate 
retirement, and he also supports a long-overdue upgrade to GS11 
for all inspectors. Commissioner Ziglar's testimony alone has 
given hope to inspectors, that didn't exist a few months ago.
    Locally, the retention problem can be very easily 
explained. An inspector works rotating shifts, weekends, 
holidays, and when a crisis comes, as it has three times in the 
past year, the inspectors' planned leave is canceled, and all 
for GS9 pay, without law enforcement retirement.
    The Vermont service center has more immigration examiners 
than we have inspectors in Vermont, their hours are flexible, 
and leave is never a problem. They also have overtime, and many 
even work in their private homes and they are paid at a GS12 
level. Is it surprising that young inspectors apply for 
examiner jobs as soon as they open? I think not. I have seen 
this happen over and over, and it will continue to happen 
unless Congress supports Commissioner Ziglar's efforts to 
correct this retention problem.
    At Highgate Springs, we have 16 immigration inspectors. In 
the next 5 years, eight will retire. Five are actively seeking 
a transfer, leaving three who intend on remaining inspectors at 
Highgate Springs for more than 5 years. Management for 
immigration inspection in Vermont presently has eight managers, 
and five expect to be retired in 5 years, as well. While my 
data is oriented specifically to Highgate Springs, VT, the 
personnel issues are very similar through Vermont INS 
inspections. Once again, I thank you for allowing me to testify 
before you.
    Mr. Souder. Before we move to the other testimony, let me 
say this to both you and Mr. Wilda, if you'll communicate to 
your employees, as well, that we very much appreciate the 
people on the front lines, and that we were not paying 
attention enough to people who are on the front lines when we 
get these kind of attacks on our country, and whether it's the 
firemen who went in to try to rescue people, whether it's the 
people at the border who are working
overtime, we appreciate it very much, and hope that gets 
through. And hopefully we can be more sensitive to the needs 
and demands that are being made on average people that are 
actually having to do the battle, and we want to thank you on 
behalf of the Congress.
    [The prepared statement of Mr. Duchaine follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.024
    
    [GRAPHIC] [TIFF OMITTED] 81864.025
    
    [GRAPHIC] [TIFF OMITTED] 81864.026
    
   STATEMENT OF JOHN WILDA, PRESIDENT, CHAPTER 142, NATIONAL 
                    TREASURY EMPLOYEES UNION

    Mr. Wilda. Good afternoon. Chairman Souder, Congressman 
Sanders, ladies and gentlemen, I'd like to thank you for giving 
me the opportunity to appear before you today. My name is John 
Wilda. I'm a U.S. Customs Inspector assigned to the port of 
Highgate Springs, VT. I've worked here for 27 years. I'm also 
the chapter president of Chapter 142 of the National Treasury 
Employees Union. Chapter 142 represents all bargaining unit 
employees in the U.S. Customs Service who are employed in the 
State of Vermont and assigned to the port of Pittsburg, NH.
    My objective today is to explore ways to enhance the 
security at our borders, improve ways of facilitating cargo, 
and easing the entry of legitimate travelers into the United 
States. Prior to making any recommendations about staffing, I 
think the Federal Government has some decisions that must be 
made.
    The State of Vermont is divided into two area ports, 
Highgate Springs and Derby Line. Each port maintains 
jurisdiction over other smaller ports, as well. There are 15 
staffed border crossings in Vermont; 10 of the 15 border 
crossings are staffed by one inspector per shift. Of these 10, 
2 are open only 16 hours per day. Both of these are located 
within the area port of Highgate Springs, VT.
    Since we have gone on high alert, the number of inspectors 
assigned to each shift has been increased to two inspectors per 
shift, 24 hours a day, 7 days per week. This includes coverage 
at the two ports previously staffed only 16 hours per day. 
Keeping these small, one-person stations open with two 
inspectors will require an additional 40 to 50 inspectors in 
the State of Vermont.
    In December 1999, this country should have received a 
wakeup call when a terrorist, Ahmed Ressam, was arrested by 
U.S. Customs officials attempting to smuggle bomb-making 
supplies into the United States at Port Angeles, WA. Mr. Ressam 
lived 45 miles north of Highgate, in Montreal. Highgate Springs 
is a direct link between Montreal and Boston.
    Our work has changed significantly since September 11th. We 
now double-staff our one-person ports. We staff around the 
clock at ports that were previously open only 16 hours per day. 
We double-staff our primary inspection lanes at the larger 
ports so that we can safely examine every car, truck and bus 
entering the United States. We unload each and every bus that 
arrives and check all passengers' names in our Customs and 
Immigration data base. Our work has increased significantly, 
yet we're doing it all with no increase in staff.
    Last pay period I worked 50 hours of overtime over a period 
of 2 weeks. I recently worked 21 consecutive days between days 
off. I often work 16 hours, get off work at 8 a.m., return to 
work at 4 p.m. the same day. On-the-job work injuries have 
increased due to fatigue. We often work several different 
shifts in a week. All vacations have been canceled. Our summer 
inspectors have been extended until March.
    To go along with the agency's philosophy of facilitation, 
Customs proposed using remote video inspection systems at 
certain remote one-man ports. At that time, NTEU warned the 
agency of the potential drawbacks of this system, including a 
dangerous security issue, terrorists. Within a year of the 
installation of the remote video inspection in Pittsburg, NH, 
Lucia Garofalo, who was suspected by the U.S. Government of 
having terrorist connections after she was arrested, took 
advantage of the open border concept. As a result of her entry 
via camera inspection, intel was generated by a customs 
inspector which resulted in her arrest at another one-person 
crossing in Beecher Falls, VT, shortly thereafter. Several 
years ago, two other terrorists were arrested, one in Alburg 
and one in Richford.
    A supplemental appropriations bill provided the Boston 
Customs Management Center with 80 additional inspectors. The 
Boston CMC encompasses all of New England. Of these 80 
inspectors, Highgate Springs, the largest land border cargo 
center in the CMC, was allotted a total of 5. Boston received 
30. During the present alert, Boston has been providing 
Highgate with TDY inspectors. That has helped. But we should be 
getting triple the amount in order to immediately alleviate the 
stress of working long hours with little impending hope for 
some much-deserved time off.
    Since September 11th, we no longer work alone. Aside from 
the one-person ports, more staff is needed at the larger ports, 
as well. We have a new $10 million facility here at Highgate 
Springs, which opened in 1997. Understaffing has caused it to 
be grossly underutilized. Our warehouse is only open 16 hours 
per day. Staffing cuts have eliminated our two-man mobile 
enforcement team. Boston has a 16-person team. We should be 
opening our warehouse 24 hours per day. We should maintain an 
outbound inspection team. An 80-car freight train arrives in 
St. Albans daily without any inspection at all.
    Lake Champlain is a wide-open sieve to both boaters in the 
summer and snowmobiles in the winter. During Y2K, we had a 
bomb-detecting ion scanner. We no longer have one. We used to 
have two administrative employees here. Inspectors and 
supervisors now perform their functions.
    The process for new hires needs to be expedited. It now 
takes well over a year to get an inspector on board. One way to 
get around this is to offer full-time positions to those who 
now work only part-time. Hiring needs to be decentralized and 
brought back to the local managers.
    While our prime focus is fighting terrorism, there are 
additional benefits to the way we now perform our inspections. 
Four major drug interdictions were made in Vermont since 
September 11th. Additional staff will enable us to fight the 
evils of terrorism and interdict major drug shipments.
    We need to reexamine some of our immigration policies so 
that we never again allow terrorists to enter our country, 
legally or illegally. We must use our borders to protect 
ourselves. We cannot become complacent again. There is a cost 
to more staffing. I think there are millions of Americans who 
believe the added security is worth it.
    It is very clear that funding must be increased to allow 
Customs to meet the challenges of the future. Customs' recent 
internal review of staffing, known as the Resource Allocation 
Model [RAM], shows that nationwide, Customs needs 14,776 new 
hires just to fulfill its basic mission. Highgate Springs would 
need 17 new inspectors and 8 additional support personnel.
    Another issue that must be addressed is law enforcement 
retirement for Customs inspectors and canine enforcement 
officers. Customs officers have the authority to apprehend and 
detain those engaged in terrorism, drug smuggling, and 
violations of other civil and criminal laws. We are being 
denied benefits given to our colleagues who work with us. 
Granting us law enforcement status would be a long-overdue step 
in recognizing the contributions we make in protecting our 
borders. There is presently a bill before Congress, H.R. 1841, 
which would grant law enforcement status to customs officers.
    In closing, we can facilitate cargo, ease travel, and 
improve security, but it all comes down to more staff. We need 
more inspectors so no one works alone at small ports. We need 
more staff at the larger ports so we can facilitate cargo by 
assigning more inspectors to cargo release and open our 
warehouses 24 hours per day. More inspectors will allow us to 
open more traffic lanes on busy days, thereby reducing waiting 
times and enhancing enforcement. We need to institute a roving 
enforcement team to provide inspectional capabilities at the 
rail yard, on the lake, and between ports as needed. We need 
better technology and better communication with other agencies. 
Either we revert back to the border being a sieve, or we get 
the requisite staff necessary to protect all Americans. Thank 
you very much.
    [The prepared statement of Mr. Wilda follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.027
    
    [GRAPHIC] [TIFF OMITTED] 81864.028
    
    [GRAPHIC] [TIFF OMITTED] 81864.029
    
    Mr. Souder. Thank you.
    Mr. Chad Tsounis, executive director of the St. Albans Area 
Chamber of Commerce.

STATEMENT OF CHAD TSOUNIS, EXECUTIVE DIRECTOR, ST. ALBANS AREA 
                      CHAMBER OF COMMERCE

    Mr. Tsounis. I'm pleased to testify before the Government 
Reform Committee, Subcommittee on Criminal Justice, Drug Policy 
and Human Resources today, Sunday, October 28th, in regard to 
issues relating to border crossings.
    I understand the purpose of this hearing is to explore ways 
to improve security, facilitate commerce, and ease travel 
between the United States and Canada. I further understand that 
the subcommittee will make recommendations concerning potential 
legislation based upon the information which you today will 
receive. I therefore take very seriously this hearing today. 
Thank you for the opportunity to address these important issues 
on behalf of the business community within Franklin County.
    The issue of security is best left to the Customs officials 
of whom have already made ample statements today at this 
hearing. However, a few comments will suffice that the security 
at our borders must be strong, consistent, and uniform. There 
must be a thorough screening process for those Customs 
officials who are responsible for the security of our borders 
and border crossings. There must further be acceptable funding 
to allow for an increase in Customs border officials so as to 
provide an adequate level of personnel at the border, with the 
purpose of enforcing good security procedures; however, not at 
the expense at the convenience and utility of our border 
crossings.
    There should further be consistent and uniform procedures 
used during the process of border crossing, which are well 
communicated to the public and business community at large, for 
the purpose of proper compliance with such procedures.
    The issue of facilitating commerce is another which has 
been touched upon by members of the witness panel, yet which 
I'll address briefly. The best way to facilitate commerce on 
our U.S.-Canadian border is not necessarily promoting policy 
which allows for the quickest transport across the border. 
Rather, it is the promotion of policy which allows for the most 
thorough and efficient crossing of the border.
    Again, the issue of appropriate staffing at the border is 
one which should be addressed, as the volume across the border, 
I assume, increases year by year. Again, diligent communication 
of border-crossing procedures and standards should be relayed 
to those businesses that take part in regular commerce across 
the border. The need for efficient crossing of our U.S.-
Canadian border is paramount to the success of our businesses 
that rely on accessibility, both for the exchange of products, 
as well as the impact of tourists upon our service-based 
businesses.
    An issue of importance in light of September 11th's tragic 
events is how the strengthening of security at the border will 
affect the day-to-day travelers and tourists who seek to visit 
the United States or Canada via our border crossing.
    Let me be clear that the consistent, uniform security 
procedures taken at our border should by no means be 
compromised simply for the sake of an easy and quick crossing 
of our border. Instead, there must be sound policies and 
procedures which are both expected by and communicated to the 
traveling public. These policies could be documented, for 
example, in an easy-to-read brochure distributed by U.S. 
Customs via chambers of commerce on both sides of the border 
which explain what a traveler should expect in terms of 
appropriate documentation, inspection, and allowance of items 
to be carried across the border.
    Of even greater importance, however, is the communication 
of problems or delays at the border which may immediately 
affect the traveling public. Throughout the day on September 
11th, our Chamber office was flooded with phone calls asking 
for us to confirm whether or not the border had indeed been 
closed to travelers. Again a week or so later, the border was 
rumored to be closed because of an alleged bomb threat. In both 
instances, the immediate need of travelers was to determine 
whether or not to stay put in their present location or to 
continue on toward the border.
    We received phone calls in both instances from chambers in 
other New England States who asked for similar information in 
order to service travelers heading north. Massachusetts, New 
Hampshire were examples. The St. Albans area Chamber of 
Commerce was unable to provide accurate information to 
travelers, and was further unable to confirm the border 
closings because of tied-up phone lines at Customs.
    An easy and practical solution which should be adopted in 
light of future potential delays or border crossings is a 
uniform communication policy in which chambers of commerce and 
other related organizations be contacted and informed in light 
of these happenings. The dissemination of reliable information 
to the traveling public will not only alleviate congestion at 
the border during instances of delay or closing; rather, it 
will allow travelers to plan accordingly if border crossing is 
temporarily suspended or delayed.
    In either case, communication of present circumstances at 
the border must be relayed in a timely, accurate, and 
sufficient manner to chambers of commerce and other related 
organizations in order to continue the confidence and 
reliability of our border and its workings.
    In conclusion, the improvement of security, the 
facilitation of commerce, and the ease of travel between the 
United States and Canada should be conditioned first upon 
safety and security, and then upon ease and accessibility. 
Further, any policy developed which speaks to these issues of 
security, facilitation of commerce, and the ease of travel 
between the U.S. And Canada, should have a long-sighted, as 
opposed to short-sighted, approach as relates to the effects of 
these policies upon businesses.
    A strong, consistent and uniform policy for crossing our 
borders, which emphasizes thoroughness and efficiency as the 
rule, will maintain an adequate level of accessibility to the 
border by our businesses and traveling public. Efficiency and 
thoroughness at the border from day to day are better for our 
businesses and public than a misstep and tragic event which 
results in an uncalculated and negative effect upon our 
community, businesses, and economy.
    [The prepared statement of Mr. Tsounis follows:]
    [GRAPHIC] [TIFF OMITTED] 81864.030
    
    [GRAPHIC] [TIFF OMITTED] 81864.031
    
    Mr. Souder. Thank you.
    OK, Mr. Smith.

STATEMENT OF TIMOTHY SMITH, EXECUTIVE DIRECTOR, FRANKLIN COUNTY 
                  INDUSTRIAL DEVELOPMENT CORP.

    Mr. Smith. Good afternoon, and I'd like to welcome everyone 
to northern Vermont. My name is Timothy Smith, and I'm the 
executive director of Franklin County Industrial Development 
[FCIDC]. FCIDC is a nonprofit corporation which is partially 
funded by the State of Vermont, municipalities within Franklin 
County, local businesses, and utilities. FCIDC is engaged in 
processes of building a strong diversified market economy that 
serves the interests of area enterprises, municipalities, and 
residents.
    As mentioned in your invitation to testify, your area of 
concern included security, facilitation of commerce, and ease 
of travel between the United States and Canada. The area of 
which I feel most comfortable is that of facilitating commerce.
    I have lived along the Canadian border most of my life--if 
not here, then 5 years in Derby Line, VT, in the Northeast 
Kingdom. What was very apparent is the fact that the border 
crossings in the past had been responsible for processing and 
regulating goods and people who enter into the United States. 
Since September 11, 2001, the focus has been forever altered to 
include national defense and stricter regulations. The stricter 
regulations have led to a delay of processing all commercial 
traffic. Some have as their ultimate destination manufacturing 
or distributionsites within Franklin County.
    The truck delays at the Highgate port were increased an 
additional 45 to 90 minutes during peak traffic hours after the 
New York attacks. The length of delays have decreased as time 
has passed and as our lives have gradually returned to normal, 
as normal as we can expect considering recent events.
    The volume of commercial traffic throughout Vermont's 
northern borders have increased substantially due to the 
signing of the North American Free Trade Agreement and the 
economic growth we have seen over the past decade. Our border 
crossings are also impacted by the Port of Montreal's proximity 
to Vermont and its goal to become 1 of the top 15 ports in 
North America.
    With the increased volume of traffic and higher 
expectations on our border personnel to help in the fight for 
our national security by enforcing stricter regulations, it is 
necessary to ensure that the border crossings have the tools 
and resources they need to do an effective job.
    It is apparent that the manpower, facilities and technology 
at Vermont's border crossings are not up to par. The Vermont 
border crossings lack proper facilities, technology and 
staffing to process commercial traffic in a safe, timely and 
efficient fashion.
    I would encourage two specific enhancements that in the 
long run would improve processing efficiency, staff morale, and 
safety of our country. The first piece is obvious to anyone who 
lives near the border and knows individuals that work here. It 
is absolutely necessary to increase the levels of employment at 
the border crossings. It is difficult to operate any business 
or agency when an employee is overworked and approaching levels 
of burnout. An overworked employee may lose motivation and be 
less attentive to the tasks at hand.
    Second, an improvement in the facilities to process 
commercial traffic is imperative to do an effective and 
comprehensive job in securing our national border. The facility 
should contain state-of-the-art technology such as x-ray 
machines and communication systems.
    Currently there are no commercial vehicle facilities at the 
Highgate or Derby Line border crossings, let alone the numerous 
smaller ones scattered across northern Vermont. A facility such 
as this would allow the staff the opportunity to be protected 
by the elements, which would in turn increase staff morale.
    In conclusion, I would like to note that the businesses I 
have spoken with in Franklin County have not complained about 
the delays. They are aware of the reasons for the current 
precautions and accept them. These delays will not have such an 
adverse impact on local business that they should be forced to 
close or relocate. These delays will probably not even be a 
major concern when a company is considering locating to 
northern Vermont, as issues of higher priority when a company 
is considering locating or expanding include skilled work 
force, job training, cost of doing business, and health care.
    However, these delays are costing local businesses a 
significant amount of revenues and resources and will have a 
direct impact on the economy of Franklin County. Thank you for 
listening, and I hope the committee will consider the 
recommendations that we are proposing to you today.
    Mr. Souder. Thank you all very much. Mr. Sanders is going 
to start the questioning.
    Mr. Sanders. Thank you, Mr. Chairman. Let me divide the 
questioning up between law enforcement and commerce, if I 
might.
    In terms of law enforcement, let me start with you, Mr. 
Duchaine--and let me begin by reiterating what the chairman 
said: we very much appreciate the enormous effort that you 
folks have been making under this kind of pressure and what 
it's done to your family life and so forth. You are unsung 
hereos, and we really appreciate what you've done, and we're 
going to do our very best to make life better as soon as we 
possibly can.
    In that regard, Mr. Duchaine, you mentioned, and it should 
be of concern to all of us here, that in your statement, ``At 
Highgate Springs we have 16 Immigration inspectors. In the next 
5 years eight will retire, five are actively seeking a 
transfer, leaving three to remain for the next 5 years.'' You 
know, one of the things that we are aware of since the tragedy 
is that we are not treating the people who are on the front 
line in terms of security, the way we should. We see this in 
airports, when we find out we have minimum-wage workers who 
determine what gets on planes and what not, and we are hearing 
from you right now that in your judgment--and I agree with 
you--that many of our border people are underpaid. Let me ask 
you a specific question. What will an upgrade to GS11 mean for 
the men and women who work right here?
    Mr. Duchaine. If you're referring to dollars and cents, the 
grade structure is obvious, but what it means for the 
inspections program is we're going to be able to retain our 
younger inspectors. What you have in a situation as far as pay 
structures is the senior officers, because there's not really a 
rotation of staff here, get--if the GS11-grade inspector 
position, because in Inspections, we have a breakdown--we have 
Specialists and certain Senior Inspectors who are GS11s. They 
tend to remain. And the other two-thirds of the staff tend to 
be the trainees and the journeyman inspectors, GS9s, who are 
basically tired of waiting for the older inspectors to retire 
and move on so they can get an 11.
    Mr. Sanders. What's the difference in pay, roughly?
    Mr. Duchaine. Oh, you're talking over $1,000 a month, 
minimum difference. When you consider the overtime that they're 
earning, as well.
    Mr. Sanders. And you think if we increase the GS9s to 11s, 
you would have a lot easier time retaining people?
    Mr. Duchaine. Absolutely. I believe you would see a lot of 
the GS9 inspectors, if you get the 11--especially if you get 
the law enforcement, they would probably remain in inspections.
    Mr. Sanders. So one of the points--and I think everybody 
recognizes you want people to stay on the job for a long time, 
to learn the job, we don't want constant turnover, so one of 
the points you are making is that irregardless of how many new 
people we can bring in tomorrow, it's not going to help all 
that much if we constantly have this turnover?
    Mr. Duchaine. That's right.
    Mr. Sanders. And you think it's imperative, then, that we 
rethink those policies?
    Mr. Duchaine. Absolutely.
    Mr. Sanders. OK. Mr. Wilda, let me ask you in a similar 
vein. Your people do not have some of the retirement benefits 
that other law enforcement people have. Can you focus on that 
for a moment? What does that mean for retention? What does that 
mean for people willing to come onto the job in the first 
place?
    Mr. Wilda. I don't think we have the same problems that 
Immigration has as far as job retention is concerned. The main 
reason for that is that Immigration has several larger offices 
just south of here, within commuting distance, so if the grades 
are not available at the border, Immigration can always put in 
for another one, and just within commuting distance, have a 
much higher-paying job. Customs it's not the same. Here, 
approximately half of the inspectors are GS11 and the other 
half are GS9. I think it would help. An upgrade to an 11 would 
certainly improve morale, for one thing. Like I say, I don't 
think the turnover is the same in Customs as it is for 
Immigration.
    Mr. Sanders. If I were a 22-year-old person interested in a 
life of law enforcement, would I come up here, would I go to 
the Burlington Police Department, would I go to the State 
Police, would I go to a Federal law enforcement? How high would 
I be attracted to come here compared to other law enforcement 
career options?
    Mr. Wilda. Well, there are some benefits. One of the big 
problems, of course, is rotating shifts, long hours and things 
like that. Federal benefits, you know, attract a certain number 
of people to government service. It's a good job, but certainly 
a higher-graded job would keep people here and stop them from 
transferring. We do lose some transfers to other locations 
because there's a higher grade--it may be in Montreal, Toronto, 
Boston, Chicago, Miami--so we do lose some people, transfers.
    Mr. Sanders. OK. Let me just ask you, maybe somewhat 
personal or not, but you guys both are putting in a hell of a 
work week, and so are your brothers and sisters who are also 
involved. How much longer can people continue to work like that 
and retain their health, and in fact, their ability to do the 
job?
    Mr. Duchaine. Yeah, well my comment would be is that we 
probably got a slightly overforce in the immigration side of 
the house, that sick leave is starting to pick up for the ones 
that have health problems. I mean they're trying to get by, and 
that tends to result in more overtime for the others. To answer 
your question quickly, I would say that most can tough it out 
for a shorter period of time until we get the additional staff 
on, as our district director indicated, but I would say there's 
a certain amount of urgency, especially with our hiring 
practices being what they are.
    Mr. Sanders. When do you anticipate some additional help 
coming in? Do you have a sense of how quickly that might be?
    Mr. Duchaine. Not in the near term, no. I understand 
positions have been authorized, and obviously, no money 
attached with it, so----
    Mr. Sanders. Congress does that. I won't--has a tendency of 
authorizing----
    Mr. Duchaine. I'm hoping that will show up in the 
immigration budget.
    Mr. Sanders. We will certainly do our best to make that 
happen. Mr. Wilda, what do you hear?
    Mr. Wilda. Well, the long days are taking its toll, and 
I've seen an increase in injuries, crawling under trucks and 
things like that, somebody cutting their head or cutting their 
leg, and I think that's directly due to fatigue. I've been told 
that we have a couple of new hires coming on at the end of the 
year, which will help a little bit. Holding over the summer 
inspectors helped tremendously. These are part-timers who 
normally end August 30th, and they've agreed to stay on until, 
I believe, through the end of March, and they've been just a 
tremendous benefit to us.
    Mr. Sanders. But those are working double shifts in a 
sense, too, because they have their regular day jobs.
    Mr. Wilda. Exactly.
    Mr. Sanders. You heard the testimony that we heard from 
some of our Canadian friends a moment ago. I am interested in 
asking the same question to you. You're familiar with people 
who are going over the border on a regular basis. Can we make 
some improvements to expedite the process for those people 
whose loads we know, whose drivers we know, whose contents we 
know? Can we make some improvements in that direction?
    Mr. Smith. I would say yes. As I've spoken to people at 
Deringer's, one of the larger Customs brokers in the area. They 
have suggested that--and I believe there's a policy put in 
place--John, you can support me on this--that if someone has 
not come across a border over the last 3 years, that they need 
to be reinspected. Where they have to go back to the firm and 
they have to do an actual inspection of the company sending the 
firm, you know, the product over. So they're taking it in a 
little different respect, in that they go back to someone who 
they have not seen and then scrutinizing their paperwork and 
their operation, more so than a company who has come across on 
a regular basis. But yeah, I would agree that there could be a 
system set up for those. And I have two or three companies in 
Franklin County that sends a truck over daily.
    Mr. Sanders. Right.
    Mr. Smith. And they come through the same port just about 
the same time every day, and they have done a few things to 
help alleviate inspection. They've allowed a walkway down 
through their trailer, so that people can walk in and can check 
them. So they are working on that angle to help assist with the 
process, as well.
    Mr. Sanders. Mr. Tsounis.
    Mr. Tsounis. I don't think I would add any more than Tim 
has to the business side of it, where you have regular basis 
constantly going over the border day by day.
    As I said in my statement, in regards to tourists who are 
crossing the border--and I said tourists, not terrorists--in 
regards to tourists crossing the borders, you have people who 
are from Montreal and Burlington-based, or in those regions, 
who are regularly crossing the borders. They probably 
understand what's expected of them in regards to documentation 
that is needed, items they are able to carry across and, you 
know, food or retail possessions, but I think in terms of 
persons who may not be as familiar, tourists who may not be as 
familiar crossing the border, again, it's a communication 
piece.
    The chambers should have something in their offices, which 
we don't now, whether it's because it's not there or whether 
it's because we haven't looked for it or the publication is not 
actually in existence. There should be a communication piece 
which describes to the common traveler what kind of 
documentation could be required, what kind of searches or 
inspections could be taken during the crossing of the border, 
so I would say that just to make it more efficient, so that 
we're not getting people at the border, ``I didn't know that 
you were going to be asking this.''
    Mr. Sanders. Right, that they can have their stuff out and 
ready to go?
    Mr. Tsounis. A communication piece, something that can be 
placed in chamber offices is one example, a brochure of some 
type. The other thing I had mentioned is the communication when 
there are delays, 45 minutes or more, it would be good for 
chamber offices and other related organizations to know that 
those delays or stoppages at the border are happening. This 
way, we get people in our office or calls from chambers around 
the State or in other parts of New England, we're able to tell 
them, ``There's a 45 minute delay, have lunch, try it in 
another hour,'' so some kind of communication piece where, you 
know, for example, a 45-minute-plus delay, a stoppage at the 
border, chambers, our chamber and other chambers and 
organizations are contacted, ``Look, there is a delay, there is 
a stoppage.''
    Mr. Sanders. Suggesting that some of the restaurants in 
Swanton start advertising more, huh?
    Mr. Tsounis. Exactly, yup, and those are--I think that 
would alleviate congestion and alleviate slowing of our public 
travelers.
    Mr. Sanders. Thank you, Mr. Chairman.
    Mr. Souder. What immediately jumped to my mind when you 
said that is what they've started to do, I know even Fort Wayne 
is doing it now in the airport page, that you can call up and 
see the status of the flight, just as if, you know, it's on the 
board at the airport, that in some places they have something 
they hand at the border. But that's too late. In Windsor I was 
stopped a number of years ago, I hadn't carried my passports 
before, and all of a sudden they wanted passports for my kids 
with me, and so I had to go over and file all kinds of papers 
as to whether I had kidnapped my kids. At Sault Ste. Marie 1 
year, when we went camping, we had to leave potatoes, because 
that year there was a concern about some midwestern potatoes. 
Another year my sister was--we were meeting up there and she 
was bringing me a little Christmas tree, and that year 
Christmas trees or pine trees weren't allowed to be coming 
across.
    Mr. Sanders. You seem to be a lucky guy in terms of 
carrying products.
    Mr. Souder. Yeah, so it's true in both directions, and if 
we had some way, with the e-mails today, that could put up 
whatever's on the screen and the chambers could then get it 
down and into your network, and when there's a short-term 
thing, maybe not something system-wide but certainly at each 
border, it can't be that hard to do anymore with the type of 
information we have. Do you have any comment on that?
    Mr. Wilda. The only comment I have is I believe now you can 
access the Customs Web page and they update border waits every 
15 minutes at specific crossings.
    Mr. Tsounis. Is there a phone number, like a 1-800 number 
where somebody could call and they could have a message 
playing? I mean that's something, if you're in your car and 
you're on the cell phone, you know, you're able to make a quick 
phone call. A brochure should also talk about things such as 
what should objects look like or not look like. I mean these 
are the types of things you're going to be held up for, retail 
items--a toy gun, for instance--don't buy a toy gun and bring 
it across the border. But there needs to be communication, so 
that persons aren't getting to the borders and say, ``Oh, I 
didn't realize.''
    Mr. Souder. For example, in the midwest and west in 
particular--it probably is true in the east, too--but one of 
the big things was Canada passed a new gun-trading permit law 
and they're going into American gun shows, but a lot of people 
were not aware of that new law, and all of a sudden they're hit 
with a charge at the border. Really unusual at the northwest 
angle in Minnesota and for Alaskans, when they were traveling 
between American States, but had to go through Canada, and how 
to work through the waiver question. There are all sorts of 
things that we work through, and we have to do a better job of 
performing those.
    I had somebody riding with me in an airplane who I thought 
told me, because he was very concerned, it was his grandma--it 
could have been his aunt--was the only person at one of these 
24-hour points. Is it possible that one of the points in 
Vermont could have, in the evening, if it's a 24-hour point, a 
single elderly woman being the only person at that point?
    Mr. Duchaine. Not since the level one alert. It should be 
two.
    Mr. Souder. But prior to that?
    Mr. Duchaine. Oh, yes, yes.
    Mr. Souder. So it wouldn't only be just one person? It 
could be a female, and it could be somebody who was near 
retirement?
    Mr. Duchaine. We're talking about a female Immigration 
inspector, elderly, working by themselves at an outpost? Oh, 
yes, absolutely.
    Mr. Sanders. And you know her well, right?
    Mr. Souder. Because we often have security concerns at 7-
11s and other types of things where you just have one 
personnel, but what we're talking about here is not just one of 
you two.
    Mr. Duchaine. No, I understand. And it's--I suspect it's 
not a unique situation along the Canadian border. I'm sure 
other locations have it, as well.
    Mr. Souder. Mr. Ziglar, by the way, testified in front of 
our committee, that was our hearing that we had, and he also 
talked to a large group of members that started a lot of this 
whole concern, particularly on the law enforcement question and 
the retention question, regarding Border Patrol, but also with 
Customs, as we were looking at the hiring, when we heard, I 
think, the day before, he had met with a bunch of members, five 
people had retired, and we were losing at a time we were 
supposed to be adding.
    Furthermore, the chairman of that Subcommittee on 
Appropriations is trying to figure out, even right now while 
we're working, what the needs are. We have an irony here that 
myself and the ranking member, Elijah Cummings, are also both 
on Civil Service and are both on this subcommittee. We're 
having a little bit of a tussle right now about this grade 
ranking. We were trying to fix it, actually, in the 
Appropriations bill, but cannot. There are two short-term 
problems, but we're looking at it long-term. One is that we're 
having a problem in the entire Civil Service system, and 
there's concern about us doing a rapid fix of what it might do 
to other departments in the government if we fix one portion, 
and for example, we're having a big-time problem retaining 
doctors in the health service. And Dr. Welden chairs the Civil 
Service, so he viewed us as trying to protect law enforcement, 
but he was also concerned about how to address some other 
sectors.
    A second part of that is that we are indeed boosting the 
dollar amount, and it's to some degree, because it isn't going 
to be as high as what's authorized, and how much is spent per 
individual, particularly when we factor in the retirement 
systems that are always teetering as to whether they're funded 
anyway, that if you said--what was your more critical need, 
given the fact that both of these are important to employees, 
for safety reasons, for job pressure reasons, for health 
reasons, is it--we're going to address both questions, but is 
your need greater right now to have more inspectors to relieve 
some of the pressure, or to get the salary structure? Because 
that's a decision we have to make.
    Mr. Duchaine. We need staff right now. I mean we don't even 
have an impending date for vacation time or anything like that. 
There are very few days off that we've gotten since September 
11th, and usually that day is not a complete day.
    Mr. Souder. But the truth is that's a short-term need 
that's going to have to be addressed all over the long run. 
You're going to have to.
    Mr. Duchaine. Exactly, and if you had to have one or the 
other, like I said. It's going to end up leading to a revolving 
door, at least on the immigration side of the house. That as 
soon as they get in, they're going to be looking for something 
else, because it has----
    Mr. Souder. One of the great debates, and I believe Mr. 
Duchaine alluded to this--I didn't understand one of your 
statements, but one of the big debates is a tradeoff between 
personnel and technology. For example, if we are able to 
implement more of this pilot program on PAPS or the fast-pass 
system, do a better job of preclearances, get people one way or 
the other so they can move back and forth easier, will that 
remove some of the pressure for----
    Mr. Duchaine. I don't see it having a significant impact in 
our operation.
    Mr. Souder. That will reduce the time more than it will----
    Mr. Duchaine. Right.
    Mr. Souder. And I also understood you in your testimony to 
say that you wanted to staff all the lanes. Does that mean that 
at times, you have lanes that could be opened up more? In other 
words, it's not a problem here, but physically at this 
particular crossing, it's a personnel problem; is that true for 
trucks, too?
    Mr. Wilda. Right. Today is a good example. The trucks were 
directed basically through the auto lanes. Normally the trucks 
all cross on the other side of the warehouse, and so we'd have 
the capability of operating five passenger traffic lanes 
instead of two or three. Since we've opened this facility in 
1997, we have never had the staff to open five, even if, you 
know, we had the personnel. It's just impossible to do.
    Mr. Sanders. See here's an example that we put a whole lot 
of money into an infrastructure, but that you can't utilize 
what you have, right?
    Mr. Wilda. Exactly.
    Mr. Souder. So you said that--that was one of the questions 
I was trying to address. I know it was you, Mr. Wilda, who 
referred to--you said, when you were talking about the 
terrorist Garofalo, you referred to the camera, and said that--
I understood your testimony to be saying you felt that that was 
a failure, when in fact we caught her. Are you suggesting that 
it was--I mean it was better than nothing, but are you 
suggesting that others are getting by and it was a fluke that 
we--I didn't quite understand.
    Mr. Wilda. The remote video system has been, or had been, 
instituted at Pittsburg, NH. The monitors for that system were 
at least 30 or 40 miles away, in Norton. So if the traveler at 
that crossing said, ``I'm not going to wait 'til you can come 
inspect me,'' or whatever, they could leave and there's nothing 
we could do about it. The closest inspector's 40 miles away.
    Mr. Duchaine. It keeps honest people honest.
    Mr. Wilda. Exactly. We're doing inspections by remote 
video.
    Mr. Sanders. Let me ask you to be frank. At this moment in 
our history, with the apprehension that we all have, can we 
continue to act like that anymore?
    Mr. Duchaine. Not in my opinion, no.
    Mr. Wilda. No. Not at all.
    Mr. Sanders. I think people would be laughing that, you 
know, everyone's talking about everything crisis, crisis, 
crisis, crisis, and you have a video camera, and human beings 
are 40 miles away in a pretty remote area.
    Mr. Souder. But what you're saying happened in this case 
was they got basically a picture of her, so we knew she was 
here, but we couldn't catch her at that point, but because you 
got the picture, that went out as a warning at the border 
crossings, so when she came across a second time, we caught 
her.
    Mr. Wilda. Yeah, I believe she was refused entry when she 
came in the camera. So she went back to Canada, and based on 
that information, when she ultimately was intercepted at a 
crossing where there were inspectors, an arrest was made.
    Mr. Souder. Are you saying here--It says as a result of her 
entry via camera inspection. What does that mean?
    Mr. Wilda. Right. Pittsburg, NH, they have remote video 
system. There's a camera set up and you talk to it and you say, 
Hi, I'm so-and-so, I'm going to some location.
    Mr. Souder. Well, how does it stop you?
    Mr. Wilda. It doesn't. There's no physical barrier.
    Mr. Souder. So did she drive on through?
    Mr. Wilda. I'm not certain whether she actually entered on 
that inspection or not. I'm not sure anyone is certain whether 
or not she did.
    Mr. Souder. But we caught her.
    Mr. Duchaine. That was hence my comments that many, many 
inspectors--and she was apparently stupid this time, to turn 
around. We gathered intelligence, eventually we caught her.
    Mr. Souder. Anything else any of you want to say for the 
record? We very much appreciate you----
    Mr. Sanders. Let me just--just a few more.
    Mr. Souder. Sure.
    Mr. Sanders. Do you have any law enforcement people--do you 
have any more information than we do about some of those folks 
from September 11th who had gone from--presumably gone to 
Boston from Canada? Do we have any more information? Did they, 
in fact?
    Mr. Duchaine. I don't. I do know that the three that I made 
reference to in my testimony weren't amongst the terrorists 
that have been identified on the aircraft and such.
    Mr. Sanders. Second question is we've heard commentary that 
immediately after September 11th, there were long delays, but 
those long delays seem to have receded. Now, is that the case, 
that we're making some progress, or----
    Mr. Duchaine. I would say to a certain extent we're making 
some progress. We're being inventive on how we can clear them a 
little faster, by using--some of the local people are learning 
to use some of the outer ports of entry during the busier 
times, and I also think fewer people are traveling than before. 
I do feel we're making as much progress as we can, given the 
resources that we have.
    Mr. Sanders. On the ground at your level, what is your 
relationship to your Canadian counterparts?
    Mr. Duchaine. I would portray it as excellent.
    Mr. Wilda. I would as well.
    Mr. Duchaine. And I would like to add to the record, as 
well, we've gotten a lot of very positive comments from the 
traveling public, that I've never seen anything like it in the 
time I've been here. They're very, very understanding, polite, 
and they've thanked us on many occasions, as have you.
    Mr. Wilda. Even after a 3-hour wait, everybody would drive 
through and say thank you.
    Mr. Sanders. I think we're all in this together, and people 
understand what we have to do. Well, I just want to thank all 
of you, and once again, thank you for the great job you're 
doing.
    Mr. Souder. I forgot two other things that I had. One is 
tomorrow we're going to be over in Champlain. It's very 
interesting to me, and it's logical, that Vermont flows to 
Boston and Portland offices in both of your cases, whereas New 
York flows to Albany and New York City. But I would suspect 
that people who'd want to avoid Customs for drugs or for 
immigration, or terrorists, might not be quite that neatly 
divided. That is, if somebody crossed zones, do you exchange 
information? Do you talk regularly to the crossings across the 
way and alert--do you have a system that would bounce down and 
have to come back up?
    Mr. Wilda. Yes.
    Mr. Duchaine. Quite often people don't realize it. They'll 
drive down saying a destination out of Vermont without a 
particular intervening destination in Vermont. That's an 
automatic secondary over here. It makes no sense to travel from 
Montreal to New York by way of Vermont, so but we do 
communicate regularly.
    Mr. Souder. They may be getting cheese or syrup or 
something. You made some comments about--well, Mr. Wilda, about 
the--basically the lake being wide open. Do you have anything 
right now on the lake? What's your involvement? It's been a 
little--we've heard that the state and local law enforcement 
have more primary enforcement there. Does Customs have a 
presence, too?
    Mr. Wilda. Customs has no presence on the lake. That would 
be either Coast Guard or Border Patrol. And one of the 
suggestions that I made is if you did have some sort of mobile 
enforcement team they could cover the rail yard 1 day and the 
lake another day and some other manned crossing on a third day, 
just to intercept people and keep them off guard, so they don't 
know what to expect.
    Mr. Duchaine. The Border Patrol does have a boat, and given 
the limited resources, from what I understand word of mouth, 
they're not out there very often. Immigration inspection, they 
don't have a port of entry and don't have inspections. We do 
have boat permits where we can preprocess people in ports of 
entry, and if somebody inspects them on the lake, we're 
supposed to make sure they have been inspected.
    Mr. Souder. Is your gut feeling that much moves on the 
water?
    Mr. Wilda. I think----
    Mr. Duchaine. Yes, undoubtedly. If I could let out a family 
secret, my grandmother told me before she passed on that my 
grandfather, who had a farm out in West Swanton, VT, on the 
lake, that he smuggled booze during prohibition, as well as a 
few Chinamen. I'm sure that sort of thing is still going on.
    Mr. Sanders. Statute of limitations is in effect. Your 
grandmother is safe.
    Mr. Souder. Well, thank you all again. We appreciate it 
very much, and we'll try to make sure you get copies of this 
hearing record, and if you have additional things you want to 
submit or you have other people who are in your chamber or 
other individuals who want to submit some written testimony, 
we'll be happy to put that in the record, too. With that, this 
hearing is adjourned.
    [Note.--The publication entitled, ``Investing in the 
Future, The Customs Action Plan, 2000, 2004,'' may be found in 
subcommittee files.]
    [Whereupon, at 5:52 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Patrick Leahy and 
additional information submitted for the hearing record 
follow:]
[GRAPHIC] [TIFF OMITTED] 81864.032

[GRAPHIC] [TIFF OMITTED] 81864.033

[GRAPHIC] [TIFF OMITTED] 81864.034

[GRAPHIC] [TIFF OMITTED] 81864.035

[GRAPHIC] [TIFF OMITTED] 81864.036

[GRAPHIC] [TIFF OMITTED] 81864.037

[GRAPHIC] [TIFF OMITTED] 81864.038

[GRAPHIC] [TIFF OMITTED] 81864.039

[GRAPHIC] [TIFF OMITTED] 81864.040

[GRAPHIC] [TIFF OMITTED] 81864.041

[GRAPHIC] [TIFF OMITTED] 81864.042

[GRAPHIC] [TIFF OMITTED] 81864.043

[GRAPHIC] [TIFF OMITTED] 81864.044

[GRAPHIC] [TIFF OMITTED] 81864.045

[GRAPHIC] [TIFF OMITTED] 81864.046

[GRAPHIC] [TIFF OMITTED] 81864.047

[GRAPHIC] [TIFF OMITTED] 81864.048

[GRAPHIC] [TIFF OMITTED] 81864.049

[GRAPHIC] [TIFF OMITTED] 81864.050

[GRAPHIC] [TIFF OMITTED] 81864.051

[GRAPHIC] [TIFF OMITTED] 81864.052

[GRAPHIC] [TIFF OMITTED] 81864.053

[GRAPHIC] [TIFF OMITTED] 81864.054

[GRAPHIC] [TIFF OMITTED] 81864.055

[GRAPHIC] [TIFF OMITTED] 81864.056

[GRAPHIC] [TIFF OMITTED] 81864.057

[GRAPHIC] [TIFF OMITTED] 81864.058

[GRAPHIC] [TIFF OMITTED] 81864.059

[GRAPHIC] [TIFF OMITTED] 81864.060

[GRAPHIC] [TIFF OMITTED] 81864.061

[GRAPHIC] [TIFF OMITTED] 81864.062

[GRAPHIC] [TIFF OMITTED] 81864.063

[GRAPHIC] [TIFF OMITTED] 81864.064

[GRAPHIC] [TIFF OMITTED] 81864.065

[GRAPHIC] [TIFF OMITTED] 81864.066

                                   - 

</pre></body></html>
